<html>
<title> - THE SILENT WAR: ARE FEDERAL, STATE AND LOCAL GOVERNMENTS PREPARED FOR BIOLOGICAL AND CHEMICAL ATTACKS?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 THE SILENT WAR: ARE FEDERAL, STATE AND LOCAL GOVERNMENTS PREPARED FOR 
                    BIOLOGICAL AND CHEMICAL ATTACKS?
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2001

                               __________

                           Serial No. 107-95

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                       U. S. GOVERNMENT PRINTING OFFICE
81-522                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                Matt Phillips, Professional Staff Member
                          Mark Johnson, Clerk
           David McMillen, Minority Professional Staff Member





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 5, 2001..................................     1
Statement of:
    Lillibridge, Scott R., M.D., Special Assistant to the 
      Secretary for National Security and Emergency Management, 
      Department of Health and Human Services; Bruce Baughman, 
      Director, Planning and Readiness Division, Federal 
      Emergency Management Agency; Craig Duehring, Principal 
      Deputy Assistant Secretary of Defense for Reserve Affairs, 
      Department of Defense; Woodbury Fogg, director, New 
      Hampshire Office of Emergency Management, co-chair, 
      Terrorism Committee, National Emergency Management 
      Association; Mark Smith, M.D., Washington Hospital Center, 
      representing the American Hospital Association; and Kyle B. 
      Olson, vice president and senior associate, Community 
      Research Associates........................................    83
    McHale, Sang-Mi, survivor of 1995 sarin gas attack in Tokyo; 
      Amy Smithson, Ph.D., director, chemical and biological 
      weapons nonproliferation project, the Stimson Center; 
      Martin O'Malley, mayor, city of Baltimore; Edward T. 
      Norris, commissioner, Baltimore City Police Department; Don 
      Lynch, emergency management director, Shawnee City and 
      Pottawatomie County, OK, and former emergency management 
      director, Oklahoma County, OK; Diana Bonta, Dr.P.H., R.N., 
      director department of health services, State of 
      California; Janet Heinrich, Dr.P.H., R.N., Director, Health 
      Care and Public Health Issues, U.S. General Accounting 
      Office; and Lt. Gen. James Peake, M.D., Surgeon General, 
      U.S. Army..................................................     8
Letters, statements, etc., submitted for the record by:
    Baughman, Bruce, Director, Planning and Readiness Division, 
      Federal Emergency Management Agency, prepared statement of.    95
    Bonta, Diana,Dr.P.H., R.N., director department of health 
      services, State of California, prepared statement of.......    59
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   169
    Duehring, Craig, Principal Deputy Assistant Secretary of 
      Defense for Reserve Affairs, Department of Defense, 
      prepared statement of......................................   105
    Fogg, Woodbury, director, New Hampshire Office of Emergency 
      Management, co-chair, Terrorism Committee, National 
      Emergency Management Association, prepared statement of....   122
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, prepared statement of.................     3
    Lillibridge, Scott R., M.D., Special Assistant to the 
      Secretary for National Security and Emergency Management, 
      Department of Health and Human Services, prepared statement 
      of.........................................................    87
    Lynch, Don, emergency management director, Shawnee City and 
      Pottawatomie County, OK, and former emergency management 
      director, Oklahoma County, OK, prepared statement of.......    44
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     6
    Norris, Edward T., commissioner, Baltimore City Police 
      Department, prepared statement of..........................    37
    O'Malley, Martin, mayor, city of Baltimore, prepared 
      statement of...............................................    28
    Olson, Kyle B., vice president and senior associate, 
      Community Research Associates, prepared statement of.......   152
    Smith, Mark, M.D., Washington Hospital Center, representing 
      the American Hospital Association, prepared statement of...   138
    Smithson, Amy, Ph.D., director, chemical and biological 
      weapons nonproliferation project, the Stimson Center, 
      prepared statement of......................................    12


 THE SILENT WAR: ARE FEDERAL, STATE AND LOCAL GOVERNMENTS PREPARED FOR 
                    BIOLOGICAL AND CHEMICAL ATTACKS?

                              ----------                              


                        FRIDAY, OCTOBER 5, 2001

                  House of Representatives,
  Subcommittee on Government Efficiency, Financial 
        Management and Intergovernmental Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Putnam, Schakowsky, Maloney, 
and Cummings.
    Also present: Representative Ehrlich.
    Staff present: J. Russell George, staff director and chief 
counsel; Matt Phillips, professional staff member; Mark 
Johnson, clerk; Bonnie Heald, communications director; Jim 
Holmes, intern; David McMillen, minority professional staff 
member; and Jean Gosa, minority clerk.
    Mr. Horn. A quorum being present, the hearing of the 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations will come to order.
    On September 11, 2001, the world witnessed the most 
devastating and horrific attacks ever committed on U.S. soil. 
Despite the damage and enormous loss of life those attacks 
caused, they failed to cripple the Nation. To the contrary, 
this Nation has never been more united in its fundamental 
belief in freedom and its willingness to protect that freedom.
    The diabolical nature of these attacks was an unimaginable 
wake-up call to all Americans: We must be prepared for the 
unexpected. We must have the mechanisms in place to protect 
this Nation and its people from further attempts to cause such 
massive destruction.
    Today, the subcommittee will examine the Nation's ability 
to respond to the possibility of a biological or chemical 
attack. Even though most experts believe that the likelihood of 
such an attack is relatively low, we must ensure that the 
Nation has an emergency management structure that is prepared 
to handle even the most remote possibility of such an attack.
    The aftermath of the September 11th attacks clearly 
demonstrated the need for adequate communications systems and 
rapid deployment of well-trained emergency personnel. Yet 
despite billions of dollars in spending on Federal emergency 
programs, there are serious questions as to whether the 
Nation's public health system is equipped to handle a massive 
chemical or biological attack.
    A September 2000 report from the General Accounting 
Office--and that is part of the legislative branch headed by 
the Comptroller General of the United States--GAO found that 
the 1999 outbreak of the West Nile Virus severely taxed the New 
York public health system. This outbreak, which was ultimately 
contained, affected hundreds of people. A biological attack 
could affect thousands more.
    Today, the subcommittee will examine how effectively 
Federal, State and local agencies are working together to 
prepare for such emergencies. We want the people of this Nation 
to know that they can rely on these systems, should the need 
arise.
    I want to note that we had hoped to have Mayor Giuliani 
with us today, but the city's ongoing needs, rightly, take a 
higher priority. At the conclusion of today's hearing, we will 
recess and reconvene at a later date to allow the Mayor an 
opportunity to contribute his expertise to this hearing. In 
addition, the subcommittee will be conducting similar hearings 
throughout the country.
    We are fortunate to have witnesses today whose valuable 
experience and insight will help the subcommittee better 
understand the needs of those on the front-lines--
representatives of the Nation's hospitals and its cities, 
counties and States. We want to hear about their capabilities 
and their challenges. And we want to know what the Federal 
Government can do to help.
    We welcome all of our witnesses and we look forward to your 
testimony.
    We'll start now with an opening statement from the ranking 
individual, Mrs. Maloney, and Ms. Schakowsky and we want to 
thank them for the help they've given us in gaining this 
particular group of individuals.
    And so I now yield up to 5 minutes to Mrs. Maloney, the 
gentlewoman from New York.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.001
    
    [GRAPHIC] [TIFF OMITTED] T1522.002
    
    Mrs. Maloney. Thank you, Chairman Horn, and Ranking Member 
Schakowsky for holding this hearing. I would also like to thank 
our panel of witnesses.
    Over the past few weeks I have been to Ground Zero many 
times in New York. The amount of destruction and devastation I 
have witnessed, more than any other assault on U.S. soil, is 
indescribable and overwhelming. While we have maintained our 
strength and resolve to rebuild and come back stronger than 
ever, I shudder at the thoughts of what-ifs: What if those 
planes had contained a chemical component or had the capability 
of releasing a biological weapon? How would our response teams 
have reacted? And could we have handled a two-pronged attack?
    We now have to think of scenarios that would normally, in 
the past, have been unthinkable, in order to prepare for any 
type of attack that may come. The FBI disregarded a report of a 
man who showed up at a flight school wanting to learn how to 
steer a plane, but he didn't care about learning how to take-
off or land. Now we have to take every threat seriously. As we 
quickly learned on September 11th, the world is different and 
this war is different than any we have fought in the past.
    The terrorists are becoming more sophisticated and their 
network is widespread. They are using unconventional, 
unpredictable means. If they are willing to give up their 
lives, they can do enormous harm. And the enormous harm could 
include chemical or biological attacks that threaten the lives 
of millions of Americans.
    I am concerned that despite all the carnage we've seen in 
the financial capital of the world, we are not making 
sufficient preparations for a worst-case scenario, that we are 
more complacent than we are prepared.
    I am told that anthrax and smallpox represent two of the 
most likely forms of biological warfare. We have 7 to 10 
million doses of smallpox vaccine and there are 280 million 
Americans. One vial of anthrax has the potential to kill tens 
of thousands of people in the New York City subway system. If 
anyone can convince me by the end of this hearing that we have 
the infrastructure in place to react to such an attack and 
prevent mass carnage, I will be pleasantly surprised.
    I look forward to learning about our local, State and 
Federal Government's level of preparedness and ability to 
coordinate and cooperate with each other. It is important to 
identify the weaknesses in our infrastructure and then work to 
address them so we can improve our reaction in a time of 
crisis.
    I am also interested in learning about the availability and 
effectiveness of vaccines and antibiotics for certain 
bioweapons. Are we partnering with our pharmaceutical companies 
to prepare for an attack or are we going about business as 
usual after September 11th? We must draw on all of our 
resources, both public and private, to detect and respond to 
all terrorism.
    Again, I thank the chairman and the ranking member for 
calling this hearing, and I thank all of our panelists for 
being here. I hope that this will be the first of many hearings 
that will focus on this tremendously important issue to our 
country.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T1522.003

[GRAPHIC] [TIFF OMITTED] T1522.004

    Mr. Horn. I thank the gentlewoman.
    We will now swear in the witnesses. This is an 
investigating committee, and we ask that you stand, raise your 
right hands. And this includes also the staff behind you; just 
take the oath, too, so we don't have to keep making changes. 
The clerk will then get the names of the support.
    [Witnesses sworn.]
    Mr. Horn. I will note for the record that all the witnesses 
and their support staff have taken the oath.
    We start with a very interesting individual in particular. 
Our first witness has a very unique perspective to share with 
us, and that's Mrs. McHale, who was a victim of the chemical 
attack that occurred in Tokyo in 1995; and we appreciate very 
much her willingness to come before the committee and relate 
her experience.
    Mrs. McHale, it's a pleasure to have you.
    Mrs. McHale. Thank you, Mr. Chairman, members of the 
committee.
    Mr. Horn. We're going to have to have the clerk maintain 
getting the microphone there with everybody.
    We have a terrible system in this place, and you would 
think, with all the billions we give out to the executive 
branch, we don't give much to ourselves.
    So here we are. OK.

STATEMENTS OF SANG-MI McHALE, SURVIVOR OF 1995 SARIN GAS ATTACK 
     IN TOKYO; AMY SMITHSON, Ph.D., DIRECTOR, CHEMICAL AND 
   BIOLOGICAL WEAPONS NONPROLIFERATION PROJECT, THE STIMSON 
 CENTER; MARTIN O'MALLEY, MAYOR, CITY OF BALTIMORE; EDWARD T. 
  NORRIS, COMMISSIONER, BALTIMORE CITY POLICE DEPARTMENT; DON 
    LYNCH, EMERGENCY MANAGEMENT DIRECTOR, SHAWNEE CITY AND 
   POTTAWATOMIE COUNTY, OK, AND FORMER EMERGENCY MANAGEMENT 
  DIRECTOR, OKLAHOMA COUNTY, OK; DIANA BONTA, Dr.P.H., R.N., 
 DIRECTOR DEPARTMENT OF HEALTH SERVICES, STATE OF CALIFORNIA; 
JANET HEINRICH, Dr.P.H., R.N., DIRECTOR, HEALTH CARE AND PUBLIC 
  HEALTH ISSUES, U.S. GENERAL ACCOUNTING OFFICE; AND LT. GEN. 
         JAMES PEAKE, M.D., SURGEON GENERAL, U.S. ARMY

    Mrs. McHale. My name is Sang-mi McHale. I am here to 
testify about my experience of being poisoned in the Tokyo 
subway in 1995, but first of all, I would like to express my 
deepest sympathy toward the victims and their families of the 
recent terrorist attacks. I would also like to express my 
greatest respect and support for the rescue workers and both 
State and municipal government officials who have been working 
tirelessly since the tragedy.
    On the morning of March 20, 1995, I was on my way to Saint 
Luke's International Hospital in Tokyo for a prenatal checkup. 
I was 36 weeks pregnant. I had been living in Japan with two 
young children, since 1992, and with my husband who had been 
assigned to the U.S. Embassy in Tokyo as a staff assistant to 
Ambassador Walter Mondale. I arrived at the subway station 
around 8 a.m. The train arrived shortly after I reached the 
platform.
    As I boarded, I saw on the floor by the door a rectangular 
package wrapped in a newspaper, a sticky looking transparent 
substance was oozing from it. I walked by the package and sat 
diagonally across from it. It was about 6 feet away. I don't 
remember a particular smell, but I somehow felt the air being 
thick.
    Within a minute or two after the train started moving, I 
noticed that I was having difficulty breathing, and I started 
to cough. I remembered reading a little article earlier that 
week in the newspaper about a chemical substance in a train 
which made some passengers sick. I worried that exposure to my 
chemical might be harmful to my baby and decided to move to the 
next car. Even from the next car I could still see through the 
window both the substance and the other passengers. The 
passengers who remained in the last car were all covering their 
mouths, coughing hard and had reddened faces. They all appeared 
sick.
    At the next station, as soon as the door opened, all the 
people from the last car rushed to get off except for an old 
man who was sitting directly across from the chemical 
substance. He was still in the seat and appeared unconscious. 
He had turned purple and soon went into convulsions. A 
passenger from the end car returned into the car and dragged 
him out. I later learned that this old man was one of the first 
victims to lose his life that morning.
    At that moment, there was an announcement in the train that 
there had been a bomb incident on a different line and that all 
subways were halting service. We all gasped and hurried off the 
train. Luckily, the stairs to the street level were nearby. I 
found a public phone and called my husband. Placing a call was 
hard because my vision started getting blurry. Distinguishing 
the taxies from the regular cars was difficult as well. Many 
people were gathered at the intersection, some sitting on the 
curb and some people were helping the others.
    Soon I started hearing sirens, and I remember seeing an 
ambulance nearby. I was lucky enough to get a taxi about 50 
minutes later and went to the hospital. Again, I was lucky that 
I already had an appointment with a doctor, because I could see 
my doctor fairly quickly. He was alarmed at my condition and 
told me to stay in the hospital. I was soon given a room in a 
maternity ward and was placed on an IV. My symptoms included a 
fever, a headache, and blurry vision.
    The Japanese authorities identified the chemical substance 
as Sarin rather quickly, I think, for by that afternoon I was 
given an antidote to Sarin, atropine. Apparently, the hospital 
had enough doses for all the patients who needed it.
    I was released from the hospital 2 days later and quickly 
recovered except for miosis, darkened vision, which lasted 
about 2 months. After the incident, the hospital provided great 
care and conducted Sarin victim surveys, periodically 
monitoring the emotional distress among the patients, and 
offered counseling for those in need.
    Several things helped me that day: First, the knowledge 
that a similar incident involving chemical substance occurred 
in a train before; second, my health consciousness just because 
I was pregnant, which made me move to that next car; third, my 
general belief that Japan is actually much less safe than its 
reputation, which made me pay attention to my surroundings.
    Last, I'm happy to report to you that I delivered a healthy 
baby boy 3 weeks later, after the incident, at the same 
hospital, and he is now a happy first grader.
    I hope this has been helpful. Thank you very much.
    Mr. Horn. It has been. We're very glad for your family, and 
we thank you very much. And if you can stay with us, we'd 
appreciate it.
    Let us now go to Dr. Amy Smithson, the Director of Chemical 
and Biological Weapons Nonproliferation Project from the 
Stimson Center. So, Dr. Smithson.
    Dr. Smithson. Good morning, Mr. Chairman, and thank you for 
the invitation to appear here today.
    What you have just heard is the account of a woman who was 
exposed to the nerve agent, Sarin. Nerve agents were 
essentially discovered in the mid-1930's. In laymen's terms, 
what happens when you're exposed to very small amounts of this 
stuff is, your system short-circuits and death can occur very 
rapidly, within minutes. Other examples of nerve agents, aside 
from Sarin, would include VX and Tabun.
    There are two other basic categories of chemical warfare 
agents, including blister agents where exposure can occur on 
the skin or through the lungs and the result is as the category 
would describe, heavy, heavy blistering and other side effects 
that can be much more serious. Examples of blister agents, 
which were used quite frequently during World War I, included 
mustard gas.
    A third category of chemical weapons is called a blood 
agent, and examples of that agent include hydrogen cyanide.
    Earlier, in an opening statement, I heard mention of one of 
the biological agents that is discussed quite frequently these 
days, anthrax.
    There are two basic kinds of biological agents, and let's 
keep in mind that these are things that have to be alive when 
they reach the human lung in a very, very small particle size, 
1 to 10 microns, in order to infect us and make us ill. And one 
of the rumors that keeps making the rounds these days is that 
crop dusters are well suited for the purposes of distribution 
of biological agents. Having spent quite some time with people 
who fly these aircraft, they assure me that this is not as 
easily done as is often portrayed today.
    Crop dusters disperse materials in a micron size of 100 
microns and above. And that is a far cry from the very small 
particle size that would be needed to infect us. So let's get 
things straight about crop dusters, please.
    In terms of biological agents, they come in two basic 
categories: contagious and noncontagious. Anthrax would be the 
example that we have heard most often. There is a case down in 
Florida. But last year, when there was a case in North Dakota, 
the only people who took notice were those in health and public 
health communities. In our heightened state, I think there are 
a lot of persons who are afraid that this is a sign of 
something worse to come. I simply do not believe that to be the 
case.
    Smallpox and plagues are examples of contagious biological 
warfare agents. And these do present a problem if indeed they 
were ever to be released, a very serious problem.
    I'd like to return to the case of the cult that did this 
woman harm to illustrate how difficult it is to achieve a 
capability to disseminate these agents in a way that would 
cause mass casualties. Aum Shinrikyo was my nightmare case. 
This was a cult determined to acquire these capabilities and 
use these weapons.
    They spent over $30 million on their chemical warfare 
program. They had a state-of-the-art chemical production 
facility. They had over 100 scientists and technicians in this 
program. And they could not figure out how to make the 
significant quantities of chemical agent that would really 
cause mass casualties of the type that we're seeing in New York 
City a couple of week ago. That's one thing we should keep in 
mind.
    The biological warfare program was also quite significant. 
And they tried for several years to acquire this capability. 
But the thing we need to understand is that they flopped 
totally and utterly. Not only could they not acquire the lethal 
seed cultures, they were unable to disperse what they thought 
they had in a manner that would cause us to fall ill.
    So let's look to what terrorists can do and the hurdles 
that face them in trying to acquire these types of 
capabilities, and not get carried away with hyperbole and with 
speculation.
    In terms of what worries me, what worries me is, this 
country is peppered with over 850,000 facilities that work with 
hazardous and extremely hazardous chemicals. These facilities, 
if someone were to sabotage them, would have a very, very 
dangerous outcome. And there's information that has now been 
made publicly available about these facilities. And if there is 
one thing that I ask from you today it is that you take steps 
to make sure that information is contained.
    The remarks that I will conclude with here are based on a 
study that I did surveying 33 cities across this country in 
their readiness to contend with a chemical or a biological 
disaster.
    One thing you need to keep in mind when you think about 
what the Federal Government can do to help this country get 
prepared for this type of an event is that all emergencies are 
local, and that the lives that are saved will be lives saved by 
local rescuers. If you need to understand that point, remember 
what happened on September 11th at the Pentagon and at the 
World Trade Center. It wasn't some Federal rescue team that 
swooped in; it was the local firefighters, police, EMS and 
physicians. And if you are to get this country ready, I would 
encourage to you get the domestic preparedness program back on 
track.
    The initial intent of this program was to get the locals 
ready. But last year, out of $8.7 billion spent in this 
program, only $311 million went to readiness in our communities 
across this country.
    So with that, I see my time is up. I would be delighted to 
elaborate on the lessons that I learned in my survey from many 
people who I consider to be much more authoritative than 
myself.
    Mr. Horn. We will have questions from our colleagues on 
both sides, so stick with us.
    [The prepared statement of Dr. Smithson follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.005
    
    [GRAPHIC] [TIFF OMITTED] T1522.006
    
    [GRAPHIC] [TIFF OMITTED] T1522.007
    
    [GRAPHIC] [TIFF OMITTED] T1522.008
    
    [GRAPHIC] [TIFF OMITTED] T1522.009
    
    [GRAPHIC] [TIFF OMITTED] T1522.010
    
    [GRAPHIC] [TIFF OMITTED] T1522.011
    
    [GRAPHIC] [TIFF OMITTED] T1522.012
    
    [GRAPHIC] [TIFF OMITTED] T1522.013
    
    [GRAPHIC] [TIFF OMITTED] T1522.014
    
    [GRAPHIC] [TIFF OMITTED] T1522.015
    
    [GRAPHIC] [TIFF OMITTED] T1522.016
    
    Mr. Horn. Now I'd like to give a welcome by Mr. Ehrlich, 
the very able person representing the city and State of 
Maryland; and he is going to introduce the mayor of Baltimore 
and the commissioner of the Baltimore City Police.
    And that's bipartisan, because Mr. Ehrlich is a Republican. 
Yes, they've had only one Republican mayor; as I remember, it 
has been all Democratic.
    So we're glad to have you here, and the same for the Chief.
    So, Mr. Ehrlich.
    Mr. Ehrlich. Mr. Chairman, thank you. I appreciate this 
opportunity.
    Ranking Member Schakowsky and Mr. Chairman, members of the 
committee, on July 18th, we thought at the time we had a major 
incident, and certainly for Baltimore, MD, it was major. That 
day, a 60-car CSX freight train, traveling to New Jersey, 
derailed under Howard Street in Baltimore, MD. Subsequent fires 
sent smoke billowing out of both ends of the tunnel, a cloud 
over Camden Yards. Fire caused water main breaks in the tunnel, 
literally flooding streets above.
    The entire city was shut down. The U.S. Coast Guard shut 
down the Inner Harbor. Thirty thousand fans were removed from 
Camden Yards. Intense heat and fire were a problem, preventing 
our firefighters from initially getting to the flames. Our 
city's police and fire departments worked together with the 
mayor's office around the clock for the next few days, and the 
fire was subdued. It was a total team effort and a dire 
situation--a wonderful example of what cooperation can do.
    In the aftermath of September 11th, our city, under the 
mayor's leadership, has done some things that could not have 
been thought of 3 weeks ago. We've hired a former New York City 
Police Department official to come up with a terrorism plan, 
which the mayor, I'm sure, will talk about. We've beefed up 
security at the city government buildings and around Penn 
Station. We brought in branches to protect Baltimore's own 
World Trade Center. Emergency medical personnel are now 
connected to major emergency rooms online with what Mayor 
O'Malley calls our, ``first-time, real-time reporting time,'' 
that will help our health department track any unusual spikes 
in cold and flu symptoms that might warn of an attack.
    I really appreciate these two gentlemen, friends of mine, 
great public servants, taking the time to come to speak to our 
committee, to our Congress, to our Nation today. Both are 
proactive, both are forward-thinking, both are aggressive, both 
are thoughtful, both understand the dimension of the problem 
that they particularly face today.
    They need--they have to have cooperation from the Federal 
Government, all agencies of the Federal Government.
    I had the opportunity to talk to Commissioner Norris and 
the mayor prior to this hearing. If the message in the past has 
been, ``You protect your turf, we'll protect ours,'' those days 
are long gone. Let the message go out from September 11th 
forward that sort of mind-set is no more and cannot be the case 
in this new world we live in.
    So, Mr. Chairman, I want to welcome my two friends and true 
leaders in a time of great national emergency, Mayor Martin 
O'Malley and Police Commissioner Ed Norris.
    Mayor, thank you.
    Mr. Horn. Welcome Mayor O'Malley. We look forward to your 
testimony.
    Mr. O'Malley. Thank you, Mr. Chairman.
    And thank you, Congressman Ehrlich, for your introduction 
and for being part of this committee's hearing today. I want to 
thank you for the opportunity to join you today, as we all try 
to struggle with this new unconventional war, which, I would 
submit to you, is one that is being fought on two fronts.
    One of those fronts is far away from American soil. We have 
our soldiers on the ground, we have the best technology, the 
best and most rapid communication systems to forward 
intelligence to them, so they can accomplish their mission.
    The other front is the one that all of us sadly witnessed 
in New York City and also in Washington. It is a front where we 
have already sustained many, many casualties, not only civilian 
casualties, but also casualties among our first responder local 
fire and police officers. And while much of the discussion and 
grief has been about the 6,000 lives lost, we should not lose 
sight of the fact that thanks to preparedness, thanks to the 
efficiency and bravery of those first responders, there were 
about 40,000 lives that were saved. And that is really the key 
to all of us who are in big cities.
    You know, Baltimore is not unlike many other large cities 
in America in terms what we need to be doing right now, as 
quickly as possible, to protect as many lives as possible in 
our cities in the event that there are other attacks on our 
population centers. We're not the largest city, but we're not 
the smallest either; and we take our responsibility very, very 
seriously since we consider ourselves truly to be on the front 
of one of the two fronts in this war.
    Baltimore, however, is in a unique position because of our 
proximity and history to come up to speed very quickly. And 
we've done that--and special thanks to Marc Morial and the 
Conference of Mayors for the work that they're doing to help 
all of us share best practices with one another.
    Any of you who know American history and, particularly, the 
War of 1812 know that Baltimore does not wait for advice from 
Washington when it comes to matters of self-defense. Indeed, if 
we had, we would all be singing, ``God Save the Queen,'' still. 
So we have moved forward ourselves, and we're very lucky to 
have been able to have some great resources around us.
    Some of you may know that Baltimore was selected as a lead 
city in the chemical warfare improved response program, due to 
our proximity to Washington and also our proximity to the U.S. 
Army Soldier and Biological/Chemical Command in Aberdeen, MD.
    Also Baltimore is home to the only center for civilian 
biodefense studies at Johns Hopkins University, and you'll 
shortly hear from our Police Commissioner, Ed Norris, formerly 
of the New York City Police Department, where they have done 
extensive work on civil preparedness in the wake of the first 
World Trade Center bombing.
    And finally, I guess as Congressman Ehrlich mentioned, we 
had an emergency just back in July that was a chemical 
emergency. It shut our city down for about 5 days. And 
Baltimore had a chance to test our readiness in a chemical 
incident when a CSX train, loaded with toxic chemicals, 
derailed and burst into flames, burning in a long tunnel that 
ran directly beneath our city. The fire was in the southern end 
of that tunnel, and it happened in the middle of a doubleheader 
at Camden Yards, which is located right at that exit of the 
tunnel.
    Now, during that train fire, as is the case in virtually 
any crisis, local government was the first on the scene. In 
fact, the folks from the NTSB located down here in Washington, 
a mere half-hour drive away, did not show up until the next 
morning.
    Local government is the first on the scene, and one thing 
that is immediately apparent is that you have to set up a 
unified command structure; and this command structure, in this 
case, was under our fire chief. It was effective. We 
coordinated fire, police, health, State Department of the 
Environment, as well as the Coast Guard and our State 
Department of Transportation; and it all went very well. Key to 
this was also that the Governor ordered the State agencies to 
defer to the local unified command structures.
    Based on our experience, we learned a few things, and 
important things, that everybody should be asking. Who are your 
critical personnel? Where is the command center? What is the 
unified command? Do you have redundant communications? Are you 
talking to the public so that the public maintains an 
appropriate level of alert? What do your mutual assistance 
agreements set into motion?
    At the same time, as well as our emergency folks handled 
that particular incident, when we watched with horror, with all 
Americans, what happened in New York and Washington, we 
realized we needed to do more. We need to do more. And we've 
set about doing several things on three different fronts, if 
you will, and every city in America needs to be doing this.
    Those fronts are the three that break down, just in a 
thumbnail, into: security, emergency preparedness, and 
intelligence. I'm going to defer to Commissioner Norris to talk 
to you about the most worrisome one of all of those to me, 
which is criminal intelligence.
    On security, we've been able to recruit from New York City 
Chief Lou Anemone, and we have been taking a series of steps to 
improve our preparedness, looking at public buildings, looking 
at the public infrastructure, looking at the private 
infrastructure.
    It is absolutely alarming the degree to which our rail 
system is open to everyone. I'm talking--we are not unlike many 
other big cities. When you think of the amount of chemicals and 
armaments that move along our rail system that is clearly 
someplace where we could use some Federal help in pushing 
greater security measures. But we're looking at all of those 
sorts of things, as I said, the public buildings as well as the 
private infrastructure, bolstering police and security presence 
at water supplies.
    On the emergency preparedness, we are continuing to 
coordinate with the Center for Civil Biodefense. We've worked 
with all of our hospitals so that the ones who had bioterrorism 
plans have now shared them with their colleagues. And on the 
intelligence front we have created a biosurveillance system in 
a matter of just 2 short weeks where we make sure that, in real 
time, we're looking at the symptoms being displayed in our 
emergency rooms, in our clinics, that our paramedics are 
seeing, we're watching the number of dead animals that our 
animal control people pick up and we're looking at absentee 
rates.
    It's simple. It hasn't cost millions and millions of 
dollars. The hospitals were willing to do it with local 
leadership. So we actually do have a pretty good intelligence 
network set up to identify it early.
    My time is running out. I'm going to wrap up and defer to 
Commissioner Norris to go to the more worrisome side of this.
    But in conclusion, I just want to again emphasize, as the 
doctor did before me, that I think we have models that work 
like the Chemical Warfare Improvement Response Program. Those 
models involve direct local funding.
    You have to get the help to the first responders; and the 
first responders are not the States, they are the cities--
direct local funding to the cities. I could talk to you at 
greater length about our equipment wants and desires, our 
vaccination wants and desires and things of that nature. And 
all of them are concerns, and none of us are where we want to 
be, where we hope to be.
    But the biggest concern of all of these is the lack of 
criminal intelligence, the lack of a connection between the 
3,000 local law enforcement officers under my command in the 
city of Baltimore and the 200 or so FBI agents who cover the 
entire metropolitan area. I would ask you to do whatever you 
can on that front.
    Because, again, this is a war on two fronts: one where we 
don't skimp, where we have the best technology, the best 
communication, the best intelligence rushing to the front line; 
and another one which is our local front, where none of those 
things are rushing to the front lines of major cities' fire and 
police departments.
    Thank you.
    [The prepared statement of Mr. O'Malley follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.017
    
    [GRAPHIC] [TIFF OMITTED] T1522.018
    
    [GRAPHIC] [TIFF OMITTED] T1522.019
    
    [GRAPHIC] [TIFF OMITTED] T1522.020
    
    [GRAPHIC] [TIFF OMITTED] T1522.021
    
    [GRAPHIC] [TIFF OMITTED] T1522.022
    
    Mr. Horn. Well, thank you, Mayor. I think you have given 
outstanding thinking and results, and that would be good advice 
for every mayor in the country. Hopefully--at your various 
national conferences, I would hope that you and some of the 
other mayors get that through to your fellow mayors.
    As to the FBI, we will certainly be making some 
recommendations on that one to the attorney general, because I 
know exactly what you're talking about.
    Commissioner, it's a great pleasure to have you with us. 
And we're delighted to have you. Now, you are in charge of the 
city police department. And I take it there is a separate fire 
department.
    Mr. Norris. Yes, sir.
    Mr. Horn. Because I would certainly like--what you know 
about the fire department and what they did would be very 
helpful in the record.
    Mr. Norris. Mr. Chairman, Mr. Ehrlich, members of the 
subcommittee, thank you for giving me the chance to talk with 
you today.
    The subcommittee has heard Mayor O'Malley describe the many 
steps being taken to carry out his responsibility for the 
overall safety and security of Baltimore. As police 
commissioner, I am the individual responsible to the mayor for 
preventing criminal actions that could lead to loss of life and 
property. I would like to focus on just one area he has 
mentioned, the area of collaboration and contact between the 
Federal authorities and local law enforcement.
    There has been much discussion about the disconnect on 
Federal agencies that share responsibility for homeland 
security. What has not been discussed is the disconnect between 
Federal and local law enforcement.
    My main point to you today is that I believe all levels of 
law enforcement must do a dramatically better job of collecting 
and sharing intelligence. If we don't, the chances are much 
greater that terrorists can operate at will and cause even 
bigger disasters in our country.
    Neither we nor any other local law enforcement agency we 
know of has been asked to contribute manpower in any broadly 
coordinated way. For example, there are thousands of leads 
related not only to the September events, but to the continuing 
threats the attorney general has repeatedly warned us about. 
Local law enforcement has the manpower to followup on a very-
high-volume of leads. The Federal agencies do not.
    For example, the FBI has a total of 11,533 agents. There 
are nearly 650,000 police officers in this country. We want to 
help, and I think the Nation needs us to help. To prevent other 
terrorist incidents, pressure needs to be brought to bear on 
anyone who may be planning any attacks.
    Local law enforcement, not Federal agencies, are in daily 
contact with literally millions of people every day. The NYPD, 
the department where I spent most of my career, and the last 
year as a deputy commissioner in charge of operations, has over 
10 million documented interactions with citizens. Those include 
arrests, citations, field interviews, stop-and-frisk. They 
don't include the millions of other discussions officers 
routinely have with citizens.
    We deal on a daily basis with network of registered 
informants. We can debrief prisoners about suspicious 
activities that may be terrorist in nature at the same time we 
debrief them about traditional crimes. But we have to know what 
the FBI knows about threats, tips and even just rumors. We have 
to know more about what there is to look for in our own 
communities, so we can protect our own people and be more 
effective gatherers of intelligence for the FBI.
    While the FBI has done nothing to prevent us from doing 
this work on our own, they have given us nothing but a watch 
list to go on. In the week after the attack, the watch list had 
names, few dates of birth, no addresses, no place of 
employment, no physical descriptions and no photographs. By 
Friday of the same week, we got a revised list which contained 
more information, but still no pictures.
    I do not understand this. When someone commits a murder, 
rape, robbery, you plaster his picture all over police stations 
and, whenever possible, in the media to help locate the 
individual before he commits a crime. Now we're looking for 
murderers of thousands who may become the murderers of 
millions. Why aren't we all working together to find the people 
the FBI is looking for?
    In short, I think the rules of engagement for law 
enforcement have changed forever inside this country. It may 
have once made sense for Federal agencies to withhold from 
local police their information about developing cases. Today, 
we all need each other if we as a nation are going to 
successfully counter threats that can come from virtually 
anywhere, at any time, in any form, including those that could 
destroy whole cities.
    To prevent recurrences of terrorism which could drive this 
Nation to panic and economic collapse, I believe we must do the 
following. Federal agencies must share all locally relevant 
information with the nearly 650,000 State and local police 
officers who could be helping them today, but who for the most 
part are not. Police chiefs should receive regular briefings on 
even highly classified information to help those chiefs better 
direct their own internal intelligence and counterterrorist 
efforts.
    The Communications Assistance for Law Enforcement Act 
[CALEA], which was passed in 1994, but has never been fully 
implemented, must be enforced. CALEA requires telephone 
companies to ensure their systems and networks can accommodate 
Federal, State and local wiretaps in the face of changing 
telephone technology. Right now, we can't intercept certain 
digital telephone technologies, and that is keeping all of us 
dangerously in the dark.
    In short, we must do all in our collective power not only 
to locate the collaborators of last month's hijackers, but also 
to deter all terrorists from operating against our still-
vulnerable transportation systems infrastructure and people. I 
think the threat is so great that we should have every police 
officer in the America in this fight.
    Like hundreds of firefighters in New York, my fellow 
officers at the NYPD showed their willingness to give their 
lives to save others. My officers in Baltimore are ready to do 
the same. I think we must be allowed to help. I believe the 
life of the Nation may depend upon it.
    Mr. Horn. Thank you very much, Commissioner.
    [The prepared statement of Mr. Norris follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.023
    
    [GRAPHIC] [TIFF OMITTED] T1522.024
    
    [GRAPHIC] [TIFF OMITTED] T1522.025
    
    [GRAPHIC] [TIFF OMITTED] T1522.026
    
    Mr. Horn. We're going to go through the next three and then 
one more, and then we'll go into Q&A.
    Mr. Lynch is the Emergency Management Director, Shawnee 
City and Pottawatomie County, OK, former Emergency Management 
Director, Oklahoma County, OK.
    So, Mr. Lynch, we're delighted to have you here. You went 
through the experience of the Federal building that was wiped 
out there.
    Mr. Lynch. Thank you, Mr. Chairman, and to Ranking Member 
Schakowsky, to the other honorable members of this committee, 
it is a great pleasure for me to come before you today to 
discuss the preparedness efforts for chemical and biological 
terrorist attacks in our country.
    First, let me say that all Oklahomans, but especially my 
fellow emergency managers and allied emergency services 
personnel extend our deepest compassion and prayers to the 
emergency workers, victims, family members and citizens of 
those communities affected by the attacks on September 11, 
2001. Every emergency worker in Oklahoma was ready to come to 
the aid of those communities impacted to repay in some way the 
support that you gave us in the Murrah Building incident.
    While we wanted to respond physically, we knew that our 
presence would create an unnecessary logistical burden on the 
community. Therefore, we have sent our support financially, 
spiritually and emotionally to our brothers and sisters in New 
York, Pennsylvania and Virginia. We shall continue to do so as 
long as there is a need. We will always remember the heroism 
displayed in those communities.
    I think it's important to point out, as my colleagues on 
the panel have done, that a lot of work has been done in the 
last 6 years to prepare our communities. Among those activities 
are, State and local emergency operations plans have been 
modified to include terrorism preparedness activities and 
mirror the Federal response plan.
    No. 2, State and local emergency exercises have been 
changed to incorporate response forces working in and around 
terrorist activities.
    No. 3, national, regional, State and local training 
programs have been created which integrate personnel from all 
levels of government into private sector and voluntary agencies 
active in disasters.
    And No. 4, communities have received limited Federal and 
State support for equipment to use in response to these 
terrorist events.
    The Nunn-Lugar-Domenici Act was a good starting point. 
However, somewhere along the way, the good intentions got 
slightly skewed under the Federal bureaucracy. Both Oklahoma 
City and Tulsa, OK, were on the list of the 120 cities to 
receive this training. In my capacity at the time, I 
participated in activities for both communities.
    The actual training itself was outstanding. It was 
relevant, it was useful. However, getting there was 
inefficient. There were a lot of meetings that were held prior 
to the actual training itself. In fact, when it came down to 
doing the training and providing the equipment caches, what was 
promised was not delivered. I think probably that's because the 
money went toward meetings instead of toward actual training 
programs.
    All the quality training in the world, Mr. Chairman, as you 
have heard from everybody here, all the plans that are prepared 
are not valuable if you don't have the tools you've trained on 
to respond with, and if you don't have the capability to 
sustain and augment that training.
    Both Oklahoma City and Tulsa were kind enough to include 
their neighboring Federal, State and local jurisdictions in the 
training programs. This not only helped spread the training to 
additional communities, but it helped foster teamwork and 
continuity of operations across jurisdictional boundaries.
    Additionally, the FBI, the Federal Emergency Management 
Agency, the U.S. Public Health Service have all sponsored 
outstanding training programs that have helped communities 
achieve a higher-level of preparedness. Most of these programs 
have been open to participants from all disciplines.
    However, we need more equipment. I cannot emphasize this 
enough. While Nunn-Lugar-Domenici provided some minimal 
equipment and prior hazardous materials training encouraged 
larger communities to equip firefighters to respond to 
potential chemical emergencies, many communities across this 
country, and particularly in the heartland, simply do not have 
all of the equipment that would be needed in a chemical or 
biological attack.
    I have proposed the following recommendations: No. 1, 
funding for assistance to the firefighters program of the 
Federal Emergency Management Agency should be at least doubled 
for fiscal year 2002, and increased reauthorization for Federal 
fiscal years 2003 through 2007 of at least $1 billion per year 
should be passed.
    No. 2, more pharmaceuticals are needed to be stockpiled. 
The current stockpile maintained by the Department of Health 
and Human Services is dangerously insufficient to handle more 
than two simultaneous events. Local communities need to be able 
to readily access these equipment caches within their 
jurisdiction. We can't wait for 8 hours or more for a supply to 
be flown in.
    And the capability has to be developed at the local level. 
While there is great technical expertise at the Federal level, 
waits of up to 6 hours for a technical support team will not 
make it in those critical first few hours. So we have to 
develop this capability across our country.
    In summary, Mr. Chairman, I believe that our communities 
should not be characterized in terms of gloom and doom. We have 
done a lot to help; the Federal and State governments have done 
a lot to develop emergency management systems. Likewise, the 
situation should not be characterized as shipshape.
    While the foundation has been laid, now is the time to 
buildupon that foundation. The recommendations I have mentioned 
in this testimony and in my written prepared remarks I believe 
will guide us on a proper path to enhancing our preparedness 
and serving our citizens.
    We recognize that true emergency management requires a 
partnership between the Federal, State and local governments, 
business and industry, individuals and families, and voluntary 
organizations active in disaster. While we at the local level 
are ready to do all that we can to support the war against 
terrorism, we stand firmly behind the President and the 
Congress and we eagerly anticipate your assistance in this war.
    I thank you for your willingness to investigate this matter 
and to help us with the task ahead. I thank you for the 
opportunity to address this committee.
    Mr. Horn. Well, thank you very much, Mr. Lynch. We'll look 
forward to you in the question period.
    [The prepared statement of Mr. Lynch follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.027
    
    [GRAPHIC] [TIFF OMITTED] T1522.028
    
    [GRAPHIC] [TIFF OMITTED] T1522.029
    
    [GRAPHIC] [TIFF OMITTED] T1522.030
    
    [GRAPHIC] [TIFF OMITTED] T1522.031
    
    [GRAPHIC] [TIFF OMITTED] T1522.032
    
    [GRAPHIC] [TIFF OMITTED] T1522.033
    
    [GRAPHIC] [TIFF OMITTED] T1522.034
    
    [GRAPHIC] [TIFF OMITTED] T1522.035
    
    [GRAPHIC] [TIFF OMITTED] T1522.036
    
    [GRAPHIC] [TIFF OMITTED] T1522.037
    
    [GRAPHIC] [TIFF OMITTED] T1522.038
    
    Mr. Horn. We now have the Honorable Diana Bonta, the 
director of the department of health services for the State of 
California. Before that she was director of the city of Long 
Beach's excellent health services, which is very rare for most 
cities in America.
    So, Dr. Bonta.
    Dr. Bonta. Good morning, Mr. Chairman and members. Thank 
you very much for the opportunity to be here this morning.
    In addition to serving as director of the California 
Department of Health Services, I am the immediate past chair of 
the executive board of the American Public Health Association 
as well.
    And thank you very much, Congressman Horn, for your ongoing 
support of local public health programs.
    Since the tragic events of September 11th, national 
security has been become our national concern. In California, 
Governor Gray Davis has led the creation of the California 
Antiterrorism Center, which will enable all law enforcement 
agencies to share information on terrorist threats and 
activities.
    Additionally, the Governor's Office of Emergency Services 
coordinates and responds to all types of hazards, including a 
biological or chemical terrorism event. OES facilitates and 
coordinates statewide efforts in planning and response by 
bringing together Federal, State, local, nonprofit 
organizations and key infrastructure officials through various 
forums, such as the State Strategic Committee on Terrorism and 
the Threat Assessment Committee of which the Department of 
Health Services is a member.
    Also note, Governor Gray Davis has mobilized the California 
National Guard now to increase security at key airports.
    In the aftermath of the terrorist attacks, there has been 
heightened awareness of potential biological and chemical 
threats to our communities; and many have asked, ``Is the 
Nation prepared for a biological or chemical attack?'' If such 
a horrific event were to occur, the safety certainly of every 
man, woman and child would depend on the public health system. 
This system must remain strong.
    Traditional public health activities have focused on 
preventing the spread of communicable diseases and ensuring the 
safety of the air that we breathe, the water that we drink and 
the food that we eat. More recently, public health efforts have 
expanded to include disease prevention activities to promote 
healthier lives. It's a big job and it has been done very well.
    Now, in addition to all of our other responsibilities, the 
public health system is faced with the intentional spread of 
disease. Public health resources would be significantly 
challenged following a biological or chemical attack.
    In recent years, public health systems in the Nation's 
largest cities have become more involved in terrorism planning 
and preparedness use funds appropriated by Congress. Under this 
program, the Nation's 120 largest cities, including 18 in 
California, have received funds for training, exercises and 
equipment to enhance their capability to respond to incidents 
involving weapons of mass destruction, including biological or 
chemical terrorism. The program trains first responders, the 
firefighters, police, emergency management teams and medical 
personnel who will be on the front lines in case of any of 
these attacks occur in a U.S. city.
    In addition, this effort has been enhanced over the past 
several years by funding from the Department of Health and 
Human Services, allowing for the development of the 
metropolitan medical response system in a dozen California 
cities. These funds have provided an essential first step in 
developing a coordinated response to bioterrorism that involves 
enforcement, law enforcement, public health and the medical 
communities.
    In 1999, the Centers for Disease Control and Prevention 
[CDC], developed the chemical and biological terrorism response 
and preparedness program. California and several other States 
and large municipalities were awarded 5-year funding to develop 
responses and preparedness plans concentrating on five areas, 
which I'll summarize as preparedness and planning and readiness 
assessment; surveillance and epidemiology capacity; laboratory 
capacity, both for biological agents as well as chemical; and 
our health alert network/training system. These grants were 
intended to ``kick start'' all of this preparedness at both the 
State and local health department levels, and California 
received $2.5 million per year to develop the program. We were 
the only applicant to be funded in all 5 years in the country. 
And Los Angeles County, in addition, received $900,000 to 
assist them.
    Since the start of this program, certainly California has 
made great strides in preparation for both biological and 
chemical terrorism. I can tell you that we've recently had 
training, for instance, in California. Just this week we had 
forums that involved hospitals, first responders, public health 
individuals, so that we would have additional training.
    I'll summarize, then, that we need to continue to 
strengthen our systems throughout the State, and first and 
foremost, we need additional resources to ensure that the 
Federal, State and local public health infrastructure is 
strengthened.
    Bioterrorism knows no State boundaries. With additional 
resources, we would do the following.
    We would improve existing surveillance systems at the local 
level, especially at the local level.
    We would further coordinate State and local planning 
activities.
    We would provide ongoing technical training for State and 
local staff and for the primary care provider community in 
recognizing symptoms, treatment protocols and prophylactics 
involving bioterrorism agents.
    We would conduct response-readiness and risk-assessment of 
the public health system through coordinated exercises.
    We would expand the laboratory capability in chemical 
detection.
    We would further develop prevention strategies. Risk-
assessments must be conducted in many areas, such as food 
services, food production, nuclear and chemical industries, and 
water supply systems. Currently California is developing a 
guidance document for growers, food distributors and food 
service industry regarding a hazard assessment.
    And last we would evaluate the legal and regulatory 
statutes to determine whether they provide sufficient authority 
for appropriate action during an emergency.
    Mr. Chairman, members of the subcommittee, I appreciate 
your dedication to protecting the American public from these 
terrible threats and the opportunity that you've given me 
today. I encourage the subcommittee to do everything possible 
to support Federal funding and assist us in these programs at 
the State and local level.
    Thank you.
    Mr. Horn. Thank you.
    [The prepared statement of Dr. Bonta follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.039
    
    [GRAPHIC] [TIFF OMITTED] T1522.040
    
    [GRAPHIC] [TIFF OMITTED] T1522.041
    
    [GRAPHIC] [TIFF OMITTED] T1522.042
    
    [GRAPHIC] [TIFF OMITTED] T1522.043
    
    [GRAPHIC] [TIFF OMITTED] T1522.044
    
    [GRAPHIC] [TIFF OMITTED] T1522.045
    
    Mr. Horn. Now we have Janet Heinrich, who is the director 
of Health Care and Public Health Issues, U.S. General 
Accounting Office. Again, the General Accounting Office is the 
programmatic reviewer for the legislative branch. We're 
delighted to have Dr. Heinrich here.
    Please proceed.
    Dr. Heinrich. Mr. Chairman and members of the subcommittee, 
I appreciate the opportunity to be here today to discuss our 
ongoing work on public health preparedness for domestic 
bioterrorist attack.
    Last week we did release a report on Federal research and 
preparedness activities related to the public health and 
medical consequences of a bioterrorist attack on a civilian 
population. I'd like to begin by giving a brief overview of the 
findings in our most recent report, and then address weaknesses 
in the public health infrastructure that we believe warrant 
special attention.
    We identified more than 20 Federal departments and agencies 
as having a role in preparing for or responding to the public 
health and medical consequences after a bioterrorist attack. 
These agencies are participating in a variety of activities 
from improving the detection of biological agents and 
developing new vaccines to managing the national stockpile of 
pharmaceuticals.
    Coordination of these activities across departments and 
agencies is fragmented. Our staff are struggling over there 
with a chart that we have prepared that gives examples of 
efforts to coordinate these activities at the Federal level as 
they existed before the creation of the Office of Homeland 
Security.
    I won't walk you through the whole chart. Certainly, if you 
have questions, we'll try to answer them, but as you can see, a 
multitude of agencies have overlapping responsibilities in 
various aspects of bioterrorism preparedness. Bringing order to 
this picture will be a challenge.
    Federal spending on domestic preparedness for terrorist 
attacks involving all types of weapons of mass destruction has 
risen even 310 percent since fiscal year 1998 to approximately 
$1.7 billion in fiscal year 2001. Funding information and 
research preparedness on a bioterrorist attack as reported to 
us by these Federal agencies generally shows increases from 
year to year, but from a generally low level in 1998.
    For example, within HHS, CDC's bioterrorism preparedness 
and response program first received funding in fiscal year 
1999. It's funding has increased from approximately $121 
million to about $194 million in fiscal year 2001.
    While many of these activities are designed to provide 
support for local responders, inadequacies in the public health 
infrastructure at the State and local levels may reduce 
effectiveness of the overall response effort.
    Our work has pointed to weaknesses in three key areas: 
Training of health care providers; communication among the 
responsible parties; and capacity of hospitals and 
laboratories.
    Because physicians and nurses and emergency rooms and 
private offices will most likely be the first health care 
providers to see patients following a bioterrorist attack, they 
need training to ensure their ability to make astute 
observations of unusual symptoms and patterns and report them 
appropriately.
    Most physicians and nurses have never seen cases of 
diseases such as smallpox or plague, and some by biological 
agents initially produce symptoms such as the ones I have 
today, of colds, influenza, other common illnesses that are 
very much like these other virulent diseases.
    In addition, physicians and other providers are currently 
underreporting identified cases of diseases to the Infectious 
Disease Surveillance Systems.
    Because the pathogen used in a biological attack could take 
days or weeks to identify, good channels of communication among 
the parties involved is absolutely essential to ensure as rapid 
a response as is possible.
    Once the disease outbreak has been recognized, local health 
departments will need to collect information, collaborate 
closely with personnel across a variety of agencies, and bring 
in needed expertise and resources.
    Past experiences with infectious diseases and the response 
have revealed a lack of sufficient and secure channels for 
sharing information. Our report last year on the initial West 
Nile virus outbreak in New York City found that as the public 
investigation grew, lines of communication were often unclear 
and efforts to keep everyone informed were cumbersome.
    We have also heard people speak to the need for laboratory 
capacity and hospital capacity. We have seen the patient load 
of regular influenza season--patients overtax regular care 
facilities and emergency rooms in metropolitan areas are 
routinely filled and unable to accept patients in need of 
urgent care.
    In conclusion, although numerous bioterrorism-related 
research and preparedness activities are underway in Federal 
agencies, we remain concerned about weaknesses in the public 
health and medical preparedness at the State and local levels.
    And, Mr. Chairman, members of the committee, I would be 
happy to answer any questions.
    Mr. Horn. Thank you very much. I am going to have one 
individual who has a problem, and it is General Peake, who is 
the Surgeon General of the Army. And his presence in the 
answering and questioning is very important for going through 
the panel that we have just heard.
    And so if the clerk can get a chair for the general over 
here at the table. We will--OK, general, if you wanted to give 
us your presentation. And then we will start with our 
colleagues here on the questions.
    LTG. Peake. Well, Mr. Chairman, Congresswoman Schakowsky, 
distinguished members. On behalf of Dr. Clinton, I thank you 
for the invitation to represent military medicine here today. 
The military health system really has a long history of 
supporting our Nation in time of domestic emergencies. That 
ability comes as a byproduct of our readiness to support our 
military in the defense of our country and in the protection of 
vital interests.
    That mission requires active, guard and reserve medical 
soldiers trained to standard, prepared to work under austere 
and demanding environments, with an understanding of the 
spectrum of threats that can be faced on the battlefields of 
the world, endemic diseases, trauma, chemical or biological or 
nuclear threats.
    They train to work as teams in a task-organized manner with 
leaders who not only have technical skills, but organizational 
and planning skills that come through a progressive development 
process. They represent all of the skills of an integrated 
health care delivery system. They have equipment that can be 
moved as part of a self-sustaining task force and still provide 
high-quality and reliable medical care in austere and harsh 
conditions.
    They have the back-up of world class laboratory support, 
access to unique capabilities such as aeromedical isolation 
teams, bioprotection for containment facilities, and world-
class medical centers that are integrated through an air 
evacuation system that we practice.
    The written testimony that has been submitted by Mr. 
Duehring describes in some detail the supporting role that we 
in the military have to FEMA and the Federal response plan, and 
more particularly, to the public health service under Emergency 
Support Function 8.
    We can smoothly integrate into the incident command 
structure that is quite universally accepted in this country. 
We can task organize to bring individuals with special 
expertise, or teams with special capabilities, preventative 
medicine, mental health, facilities engineers or major units 
such as a hospital or a medical task force such as we had at 
Hurricane Andrew, with medical helicopter evacuation, primary 
care, hospitalization, a logistics battalion, a major military 
medical command headquarters commanded by a general officer.
    That joint task force, civil support, is now a standing 
organization that can serve as an integrator of military assets 
assigned to include such medical units.
    The most important thing that we bring, though, is where I 
started. That is the dedicated, trained and motivated soldiers 
like the National Guard soldier in New York who walked several 
miles from her office to her home, changed into her uniform and 
then went to where she knew her unit was supposed to go in 
emergencies. She did not have to be called. She was trained, 
and she just went. Charlie Company 342nd Forward Support 
Battalion New York Guard was part of the immediate set-up for 
emergency response because she lived there; she was part of 
that community.
    The 101 Cav, New York Guard, was the first medical unit 
deployed at the disaster site on the 11th. They provided care 
to fellow Guardsmen for things like respiratory distress and 
eye injuries, keeping the rescue effort going.
    And within 11 hours of the incident, one of our new, new 
New York Guard civil support teams, under the control of the 
Governor, had not only moved from Albany, NY, to New York City, 
but had gathered and tested environmental samples from Ground 
Zero, coordinated with local, Federal, and State officials, and 
were able to deem the site clear of nuclear, chemical, and 
biological contaminants. That sure made a positive impact on 
those that were working in that ongoing rescue effort.
    At the Pentagon, active units were augmented by reserve 
units working with the incident commander on the scene. 
Sergeant Delgado of the 311th Quartermaster Company from Puerto 
Rico was at the Pentagon leading his squad by September 16th, 
absolutely professional in the tough duty of recovering 
remains.
    I am proud of the trained and ready soldiers of all of our 
components, their professionalism, honed through training for 
support of our wartime fighting mission provides an asset to 
augment the local response, the State response, the Federal 
response, to chemical or biological attack here at home.
    I must tell you that your support of a robust military 
medical system is so important to keeping this capability. It 
is our direct care system that provides the training platforms 
where these soldiers of all components get their initial set of 
skills. And it is in that direct care system that skills are 
honed and maintained for the active force. And it is in those 
research laboratories like these you have already heard 
mentioned, USAMRIID, our Institute for Infectious Disease, that 
world-class scientists can examine militarily relevant medical 
threats which unfortunately now are civil relevant medical 
threats. And be available on a moment's notice to support this 
Nation.
    So I thank you for the chance to be here today and for your 
support of military medicine. Thank you, sir.
    Mr. Horn. Thank you, General.
    I would like to know, for the record, in terms of the 
military hospitals, have we got compacts in any way where there 
would be, say, the FEMA for the State Governor and then the 
FEMA--a smaller one--is often there in a county such as Los 
Angeles with 10 million people? And Los Angeles County as well 
as to have also Los Angeles City, and something like this 
happens. And there is veterans hospitals, obviously.
    In the case of Washington, you have a very fine hospital 
here in the terms of Washington. But we also have a world-class 
hospital known as Walter Reed Medical Center.
    And then you also have the Navy's Bethesda. Is there 
anything we have worked out with the cities, with the counties, 
with the States that are adjacent, so forth and would the 
military people take in the individual civilians that are 
either ill or gassed or whatever?
    How are you going to work that out and have you worked that 
out?
    LTG. Peake. Sir, it works through, as was mentioned, 
through the incident command center. So with the Pentagon as an 
example, we had our injured taken to many hospitals throughout 
the Washington, DC, area. Some went to Walter Reed, some went 
to Washington Hospital Center, to Arlington, to Inova and so 
forth. They were dispersed by the incident command center and 
the emergency support.
    Almost every place that we have an installation there is an 
integration with the local community in terms of how that 
community would plan for dealing with an emergency or a 
disaster? I would agree that it varies across the country about 
how good that planning is, and there is room for improvement in 
that.
    But we are always integrated. As you know, under the 
Stafford Act, the local installation commander can offer 
immediate response while we are waiting for the rest of the 
system to kick in.
    Mr. Horn. Yeah, as I recall in California in 1906, the 
military were there to help on that situation where you had an 
earthquake and then fires, and then the gas pipes were broken 
and all of that, and the military were there to help on that.
    And the civilians, on this recent mess at the Pentagon 
where this terrorist knocked out part of a wing, a lot of fire 
companies I am sure went to help you.
    LTG. Peake. They did, sir. And they were in charge of that 
operation and we subordinated ourselves within--I happened to 
be on the cell phone with one of my officers en route to the 
Pentagon when he saw the plane go in. I was able to contact 
Walter Reed. We had surgical teams en route by the time the 
smoke was really starting to billow.
    But when we got there, the civilian response folks were 
there, tremendously professional and we locked ourselves under 
them to be a part of the team effort.
    Mr. Horn. One of the problems is to get a proper laboratory 
to know what is this toxic that is out there. Do we have that 
pretty well in terms of your hospital system?
    LTG. Peake. Sir, there are a couple of answers to that. 
One, this civil support team that I referenced in my remarks 
has that kind of capability. And it is a relatively new 
capability, and it worked pretty well in this instance.
    They are mobile, and they bring that equipment down. At the 
Pentagon we brought from the Center for Health Promotion 
Preventive Medicine immediately we launched some folks down to 
start sampling the air, soil and water in that--in the Pentagon 
environment so that we could know what was in the smoke, and 
reassure the 22,000 people that work there.
    Regarding the laboratory business, we have committed 
ourselves to integrate with the CDC's network of laboratories 
around the country. We are upgrading the laboratories in our 
medical centers, in the six medical centers that the Army has 
to link in and be able to do the diagnostics on things like 
anthrax and brucellosis and so forth, and do that networked 
with the CDC.
    Mr. Horn. Well, thank you. If you can stay with us for a 
while. I want to yield to the ranking member, Ms. Schakowsky, 
the gentlelady from Illinois.
    Ms. Schakowsky. Thank you, Mr. Chairman. I would appreciate 
the opportunity to make a short statement, and then to ask a 
couple of questions.
    I really appreciate your holding this hearing today after 
the terrible events of September 11th. And the panel that has 
been put together, and I am sure the next one as well, is 
really excellent.
    Over the last couple of years, a national security 
subcommittee on which I sit has participated in a number of 
hearings on this subject. But none has been more useful or more 
meaningful than the one that we have heard today with the 
witnesses that we have had the honor of hearing so far.
    We have heard time and time again from experts in GAO and 
HHS and elsewhere that we need a comprehensive threat and risk-
assessment for chemical and biological attacks.
    Through this hearing today, we are developing a much 
clearer understanding of the strengths and weaknesses of our 
defenses. It is my desire that we reach an understanding that 
both reassures the public that they are safe and provides us 
clear guidance of the appropriate Federal role in responding to 
the chemical and biological threats that may exist.
    Earlier this week, the Secretary of Health and Human 
Services assured the public that our country was, in fact, 
prepared for any threat to our Nation's health. But, I am not 
sure that I share his confidence.
    As some of our witnesses have explained, our public health 
system, good as it is, could have difficulty responding to a 
significant biological or chemical attack, not to mention even 
a major flu-like outbreak.
    The capacity of our public and private hospitals is 
strained each year during flu season. A disaster with 10,000 
injuries that requires hospitalization could be very difficult 
for that system to handle. We must question whether our system 
could handle such a situation.
    The front lines in most disasters as we have heard so 
eloquently today, and I thank Dr. Smithson and Mayor O'Malley 
and all of the other witnesses for pointing this out so 
poignantly, is local government and local health care providers 
as well as State.
    We see this again and again as towns and cities are struck 
by hurricanes, tornados and even disasters like we saw last 
month. The first there to tend to those in need are the local 
firemen, police officers, emergency medical personnel.
    Any response we develop now as you have said as our 
witnesses must keep that fact in mind. Training and 
communications are key to disaster response and should be a 
major part of our planning and investment. We heard you.
    The majority of that investment should be made at the State 
or local level with an appropriate level of coordination and 
assistance from the Federal Government.
    Past experience has also shown that the public health 
system is the second line of response. Once the disaster scene 
is surveyed, the injured are moved to hospitals, it is often 
the case that the hospital capacity is reduced by the same 
disaster.
    We have taken our public health system for granted for some 
time now. It has suffered as a result. Community cooperation is 
the third line of response. Once the level of damage is 
assessed, those hardest hit will have to call upon their 
neighbors for assistance. As we saw after the events of 
September 11th, every one wants to help.
    We need to develop a network of community organizations, 
much like that under development by the Office of Emergency 
Preparedness at HHS. The goal is to provide every community 
with the preparation and resources to respond to a disaster. 
Those are just some of the many critical issues that we will 
need to assess, and many others you outlined for us today as we 
move to improve the emergency response infrastructure in this 
country so we are able to address the current shortfalls and 
the possibility of future threats to our health and security.
    I would really appreciate being able to ask a few 
questions, Mr. Chairman. I want to make sure, Dr. Smithson, I 
heard you clearly. Were you saying in terms of crop dusters, 
because there was some evidence that one of the terrorists at 
least was looking into the use of crop dusters that the 
particles that would be distributed really are too big to cause 
any kind of health risk?
    Dr. Smithson. Yes. You have got me exactly right. This is a 
very closed community. There are small businesses. One of the 
things that isn't being discussed today is really the fact that 
Atta didn't even get a peek inside the cockpit. These are 
people that are required to have a 1-year apprenticeship just 
to learn how to fly these things and operate the sprayers 
behind them. And the sprayers would be suitable for chemical 
agent dispersal, I won't joke with you about that.
    But for biological agent dispersal, you would have to go in 
there and change everything around. You can't even dial them 
down to the particle size required, very, very small particle 
size required for effective biological agent dispersal.
    Ms. Schakowsky. But it can be useful for some sort of 
chemical?
    Dr. Smithson. That is what crop dusters do. But again, if 
you just fly low a regular light aircraft, and the assumption 
is that somebody is going to jump into one of these things and 
get it successfully off the ground, it would be the difference 
between driving a little Miata sports car and driving a couple 
of 18-wheelers hitched together fully loaded. Things handle 
differently.
    And there is no assurance that they will crash, but they 
are not going to be able to operate these things automatically 
and cause the havoc that seems to believe the assumption 
working in press circles today.
    Ms. Schakowsky. No, but if they were able to get the 
training and were to load it with some sort of deadly chemical, 
and then fly it over some of--a densely populated area, it 
could, in fact, be a problem; is that not true?
    Dr. Smithson. I would agree with you in that, but again the 
assumption is that it would be effective. In cities, there is 
micrometeorology that is going to come into play.
    These crop duster pilots are trained to go way down and lay 
something right on the Earth and be effective in what they do. 
We are making several leaps of logic right now, and everything 
appears to be very frightening. I would encourage you, just as 
I have done, to spend time with people who have actually made 
these weapons so that you understand how technically difficult 
it is, with people who actually fly crop dusters so that you 
have an appreciation about this.
    One of the things that is happening in this country is our 
citizens are getting their wits scared out of them by what they 
are hearing over the airwaves, often from people that don't 
seem to know their technical stuff.
    Ms. Schakowsky. You did mention hazardous chemical 
facilities? Have you looked at all into nuclear power plants as 
a potential danger for a terrorist attack?
    Dr. Smithson. No, ma'am. My jurisdiction is chemical and 
biological. However, in the survey of 33 cities that I took, 
talking with individuals just like this; the locals are very 
aware, in fact, I defy you to find a HAZMAT captain who does 
not know off the top of his or her head how many of these 
facilities are in their communities. In most of the locations 
where I went, they had already a great appreciation of what 
these facilities were in terms of a danger to their citizens.
    Listen, the chemical industry takes the security of these 
sites very seriously. But so do the local responders around 
them. And in many cases, they have already begun working with 
these facilities and other locations like sporting arenas and 
major buildings, landmarks, to enhance the security of those 
sites.
    So there are things that are happening across this country 
in spots that will definitely protect Americans. What needs to 
be done here in the mindset that needs to be adjusted inside 
the Beltway, is that the preparation needs to be nationwide.
    And that you need to institutionalize the training, not 
just train here and there. The Federal Government's role is mid 
to long-term recovery assistance, not rescue. Because right now 
you cannot fit any more rescuers on top of the rubble pile in 
New York City.
    If you threw every Federal asset at it, it just wouldn't 
work.
    Ms. Schakowsky. Then finally, speaking of Federal assets. 
All of you have spoken about the need for Federal assistance at 
the State and local level. If we were with--with our finite 
resources to put--to make a Federal investment, what would you 
think is the most important thing? Let me just kind of--if we 
can quickly go down the panel--the most important investment 
that we could make to guarantee the safety of our citizens 
against chemical and biological threats.
    Mr. Horn. We are going to be three amendments to these 
questions.
    Dr. Smithson. Institutionalization of the training in the 
Nation's fire academies, police academies, medical and nursing 
schools as well as in public health training. That is the only 
way you are going to raise the standard of readiness and 
preparedness across this country.
    Mr. O'Malley. I mentioned before, yes, about Federal 
dollars. It is going to take Federal dollars. I really still do 
believe that for all of the other things we are talking about, 
that the disconnect in criminal intelligence is the biggest 
threat right now and the most dangerous one.
    But I would piggyback on that just to add that protective 
equipment and the additional vaccinations and stockpiles 
around.
    Mr. Norris. I agree with everything. Preventative 
equipment, stockpiles of vaccinations, but I can't stress 
enough that all of these things are carried out by human 
beings. What is missing right now is human intelligence. While 
these things are very, very important to mitigate once a 
disaster strikes, I think we need to just as seriously take the 
intervention before they strike and be tracking down the people 
that are trying to deliver whatever may come in this country. 
And that is really lacking.
    I think most of the discussion I have heard at the top 
levels regarding equipment, the biochem. threats, nuclear 
threats and the like, the choice of terrorists around the world 
is still bullets and bombs. The World Trade Center was done 
with a very low-tech operation and we seem to be losing sight 
of that.
    We are missing human intelligence and we need much more 
coordination with our Federal counterparts to arrest the people 
out there right now who have been in this country for over a 
decade preparing to do this.
    Mr. Horn. Let me add to that, and that is, some people are 
out getting gas masks and all of the rest of it. It has 
happened in Israel sometimes. But also there have been deaths 
when the individual didn't pull the cord for oxygen. What is 
your advice on that.
    Mr. Norris. Very important. Just as the mayor was saying, 
one of the most important things is to be prepared when an 
attack occurs because a lot--Dr. Smithson said it best. People 
are being terrified. If air raid sirens go off in cities around 
America and people start to leave their homes when in fact 
maybe they should stay in place and things like that, people 
are buying gas masks, gas masks, well, we have them, police 
departments and fire departments. They have to be tested to 
OSHA specifications for seal.
    You could put on a gas mask and still get killed if you run 
out the door, because they don't fit properly. And people are 
misleading themselves giving them some sense of comfort. But 
representing my city as the police chief, I still say we need 
to intervene in these acts before they occur.
    You concentrate as much of our efforts that way as you are 
to the rescue efforts afterwards.
    Mr. O'Malley. I can tell you that all 36 of the gas masks 
on stock in stores in the Baltimore area have sold out 
immediately, and none of them would do much good anyway when it 
comes to a biological attack.
    Dr. Smithson. This is one of the aspects of the aftermath 
of September 11th that has saddened me the most. Americans have 
rushed to do things that they think will serve their interests, 
when in fact that may not be the case. If this gas mask that 
you purchased is not fitted, and if you are not instructed in 
how to use it and understand the changing of the canisters and 
how to make sure that it fits when you are running, then you 
have bought yourself some false protection.
    Let us use common sense. If you do see a crop duster 
overhead, get inside, shut the windows, shut the doors and you 
will have provided ample protection for yourself. If you are 
still nervous about it, go jump into a shower. Ask fire folks. 
One of the most effective decontaminants is water.
    In terms of stockpiling antibiotics, I am sure that Scott 
Lillibridge will touch on this in just few minutes. That is 
also false security. It could backfire on Americans.
    If they start self-medicating themselves with the first 
dose--in the case of the sniffles that they get, the after 
affects could be that the medications won't work for them later 
when they really, truly need them.
    So, I know Scott will get to this, too. I hope that 
America's physicians will get better educated on what is 
happening in the country and stop writing prescriptions right 
now.
    Mr. Horn. Would any others like to respond?
    Ms. Schakowsky. Any others want to respond? I also wanted 
to thank Mrs. McHale for that very dramatic testimony and 
sharing that information and to say how happy I am. I was 
waiting to hear about your child being born healthy.
    Dr. Bonta. Mr. Chairman, I would like to address a question 
if I can. It is really difficult to pinpoint down the one 
single actual thing that if we had to eliminate it to just one, 
because all of the suggestions that have been here are good and 
we all have ideas that we think are important.
    But if I had to narrow it down, I would say making sure 
that we get the right equipment for response into the hands of 
the local first responders. It is imperative that we have that. 
We have to have good communications equipment. We have to have 
good detection of surveillance equipment. We have to have good 
personal protective equipment for those folks too if we expect 
them to be able to do their job.
    Mr. Horn. Let me ask one question before I turn to Mr. 
Cummings. That is that in the case of Baltimore, what was the 
toxin? And did you know how much--when did you first know which 
toxin it was, and had those individuals had violated the rules 
of the Department of Transportation to note on the storage 
there with the toxins so that the firemen going in would know, 
particularly under tunnels and so forth?
    Tell us a little bit about what was the toxin and were they 
terrorists or were they just incidental accidents?
    Mr. O'Malley. Well, on your last point we have yet to have 
a cause determined by the NTSB. So we don't know what the cause 
of it was at this point.
    Recently we did arrest a person of Middle Eastern descent 
coming out of the tunnel with camera equipment and a knapsack 
and a hood. And whether that person was a probe or a kid that 
didn't get enough love from his dad early in life or what that 
was, we don't know.
    But when this incident actually broke out and a fire was 
happening inside this tunnel, keep in mind this tunnel, it was 
built in the 1890's. It bankrupted the B&O Railroad. It was 
their last and greatest public works project. It is almost like 
a mile and a quarter-long brick oven with two entrances. We 
found a third one only because of memory.
    So we knew right away from the manifest what was on the 
train. You can't be 100 percent sure that the people recording 
it on the manifest didn't make a mistake. So you really don't 
know what you are dealing with until you get inside and the 
order of things.
    And the other curious thing was that although we knew what 
was on the train, without being able to get up inside the 
tunnel, we couldn't tell you where the fire was on the train.
    In retrospect, we were fortunate in that the people 
assembling the train had indeed put buffers between some of the 
chemical cars so that there was not a chain reaction. I mean, 
there was, of course, a chain reaction in that the chemical 
fire was adjacent to a car containing trash and garbage and 
packed paper, so there was a reaction, but not the sort of 
combustible reaction there would have been had all of the 
chemicals been tied together.
    I forget, the one that actually exploded was. And that was 
the one that had caused the fire. It ruptured an adjacent car 
that had hydrochloric acid in it. That basically ran out, 
diluted or was burned. The other car whose polysyllabic 
chemical name escapes me at this time, ``methylethylbadstuff'' 
we will say for the sake of this hearing, was fortunately at 
the other end of the car. And our great fear--it was some sort 
of a chlorine agent. Our fear was that would rupture, that 
would somehow be in gaseous form and become a deadly gas.
    And that was fortunately at the other end. There has been 
an uncoupling of the cars, so the cars that had jumped off the 
rail where the fire happened, you know, kind of came to a rest 
quickly. The other half of the car continued to roll a little 
bit on the back of the engine and so there was a separation of 
space.
    But, keep in mind, when all of these suckers were pulled 
out of that tunnel late at night in front of our fire 
department and a very nervous mayor at about 2 a.m., they were 
all charred and looked like a bunch of hot-dogs being pulled 
out of a fire.
    So I am sorry, I can't tell you exactly what the bad one 
was. But it was some sort of chlorine agent.
    Mr. Horn. What is the situation of that particular tunnel 
or whatever?
    Mr. O'Malley. Not unlike other tunnels, including one--you 
know, not unlike other tunnels in cities up and down the East 
Coast or rail yards or the tracks that go through them, those 
tracks are very much open. They are open to pedestrians. I 
mean, fortunately, thanks to Commissioner Norris and our 
assessment of vulnerabilities, the reason we apprehended the 
individual coming out of that tunnel was because we were 
keeping an eye on that tunnel and had additional security, had 
spoken to CSX.
    But there is very little security around any of these rail 
yards. While it is true, as the doctor said, that the chemical 
companies take the security of their chemicals very seriously, 
they take it so seriously that most of the dangerous tankers 
are left out open on the yard instead of coming inside their 
plant, inside the chained gates. So this is a serious 
vulnerability for a lot of cities, Baltimore, Philadelphia and 
many other--industrial cities along the corridor.
    We have identified it. Obviously, it is going to cost a bit 
of money to do the proper fencing, to do security cameras. The 
gentleman from the train company, as I asked him about great, 
simply security measures like that, said we have 23,000 miles 
of track in the United States, to which I answered, I am sure 
you do. And which percentage of that track runs through 
America's 20 largest population centers?
    Mr. Horn. We thank you very much.
    And now I want to yield 3 minutes to the gentleman from 
Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, for your 
courtesy. And I certainly am very pleased to welcome the mayor 
of Baltimore, Mayor O'Malley, and certainly our police 
commissioner.
    Mr. Chairman, Mayor O'Malley has done an outstanding job. I 
think his testimony today indicates that Baltimore is as 
prepared as we can be, and we can always use some help. And I 
think the mayor would agree with me on that. We can use 
resources, as we debate in the Congress about how we are doing, 
with these pocketbooks open and dealing with these emergency 
circumstances, I think it is very important that we keep in 
mind, that as Mayor O'Malley has said, we are indeed on the 
frontline of this.
    Mr. Chairman, one of the things that I find so interesting, 
coming from our police commissioner, Commissioner Norris, who, 
too, is doing an outstanding job in our city, and the crime 
rate has gone down dramatically, it is shocking to the 
conscience that the cooperation that he talked, a lack of 
cooperation between our Federal agencies and our local police.
    And, you know, when we think about all that we have heard, 
and all of the concerns that we have heard in the news media 
about how the FBI, DEA and all of the other Federal agencies, 
CIA, trying to track down the criminal element, the terrorists 
involved in this matter, and to not be working closely with our 
local police is very--I mean it should concern every single 
American who may be listening to this.
    And so one of the things that we will do, Mr. Chairman, and 
the committee, subcommittee of this committee which I rank on, 
Criminal Justice, is I have asked Chairman Souder, and I hope 
that you will help me with this, to convene a subcommittee 
hearing or with the chairman of our overall committee, 
Congressman Burton, to ask the FBI to ask the other agencies, 
Federal Government law enforcement-type agencies, why don't 
people like Commissioner Norris have the kind of cooperation 
that he wants to have?
    And so I think that while we have got great police and we 
saw it in New York, and we see it all over the country, people 
work every day, they knew their territories, just like 
Commissioner Norris said, they knew the people, they know every 
square inch of their cities, it seems logical to me that we 
would try to have that maximum cooperation.
    Finally let me say this. I think that when, as I have 
listened today, I hope that we understand--it sounds like when 
I listen to the mayor, what he is basically saying is, look, 
you know, let us not put a blinder up to our eyes and then 
listening to Dr. Smithson, let us not put a blinder up to our 
eyes and act like one thing is going on, when actually it is 
another.
    And let's be practical and deal with these things. And I 
think that is what--I hope that we in the Congress will listen 
to them very carefully, because what they bring to us are the 
practical--first of all, the information that is accurate, and 
then the practical solutions to the problem so that we will not 
be fooled.
    Americans, I think, after September 11th, they thought that 
they had a level of security, which we quickly found out that 
we didn't. So the kinds of things that are coming forth today, 
Mr. Chairman, again, I thank you. It is the kind of information 
that we need to address the problems that we are confronting.
    Again, I thank you for your courtesy.
    Mr. Horn. I thank the gentleman. And as I said earlier 
today, Mrs. Maloney, the gentlewoman from New York has helped 
us on this, as many other things. And so I now yield 3 minutes. 
We are going to just have to keep going, because we want the 
second-tier to come and we would love you to have your role 
after you hear some of the second-tier.
    So, Mrs. Maloney.
    Mrs. Maloney. First of all, I want to thank all of the 
panelists, particular to welcome my friend, Mayor O'Malley, 
with whom I have had an opportunity to work on other important 
issues before this Congress.
    I agree very much with the theme that many of you have put 
forward that all emergencies are local and the number of lives 
that will be saved is very much due to a local response. In New 
York it was New York's bravest and finest that were the first 
at the scene.
    And on Monday, when I was at Ground Zero, it was still fire 
that was in charge of the scene. Yesterday, a member of what we 
call in New York the ``Bucket Brigade,'' was in my office. This 
is the group of volunteers that supported the fire in removing 
debris by hand in buckets trying to look for lives.
    And they told me that even when there was a notice to 
evacuate, because they were afraid a building was going to 
fall, that the firefighters and officers refused to leave the 
site. They kept looking, trying to save people and responding. 
To me they are the greatest heros in our country.
    Later today we will be authorizing the intelligence 
committee. And I will certainly be bringing to the floor in my 
statements the items that you brought on better coordination. 
We definitely need to invest and strengthen our intelligence.
    I would like to ask about smallpox. Many people who are 
experts in this have told me that there is a universal 
agreement that the smallpox virus is the single most dangerous 
raw material for a non-nuclear terror attack. One expert said 
it is almost like a smallpox and then everything else.
    We eradicated it in 1978. It is supposed to exist, the 
virus, in two places, the CDC in Atlanta and in Russia. But I 
am told by some experts that they believe that many of these 
smaller countries have the smallpox virus. We know that it 
could kill, or in the past has killed up to a third of those 
infected. And the World Health Organization is trying to speed 
up responses.
    Our own government has roughly 15 million doses of smallpox 
vaccine; has ordered 40 million more for delivery by the end of 
the year 2004. Many of my constituents in New York have called 
my office and asked for the smallpox vaccine.
    I have called the National Institute of Health. They have 
told me that it is not available. Many experts believe that it 
is a threat. Russia apparently developed weapons that could put 
the virus on the tip of it and send it to our country.
    And we have not really had a great control of some of their 
weapons after the cold war. I would like to ask some of our 
experts whether you think we should be developing more vaccine? 
Should our citizens have access to it? Even though we don't 
have enough for everyone, shouldn't some of the people that are 
asking for it be able to have access to it?
    As a child, I was vaccinated, but I am told that anyone who 
was vaccinated many years ago is no longer covered or immune to 
a smallpox virus. I would like anyone on the panel who would 
like to comment on what we should be doing. Should we be 
developing more vaccine? Should we be distributing it? What 
should we be doing?
    Dr. Smithson. A few years ago, I spent several weeks in the 
former Soviet Union interviewing the weaponeers who did this, 
who figured out how to turn diseases into weapons of war. And 
the Soviet Union did that with over 50 diseases, including 
Marburg. It is true. They did weaponize smallpox. They 
manufactured tons of it, along with plague and anthrax.
    And they put it on top of ICBM's aimed at Western 
populations centers. I think it would be foolhardy to assume 
that smallpox seed cultures only exist in one place in the 
former Soviet weapons complex, which consists of over 50 
centers that were involved in the research, development testing 
and production of these weapons.
    However, when I talked with the weaponeers there was one 
thing that they understood very clearly. Terrorists, they kept 
on telling me, are our common enemies, because Moscow has had 
its own encounter with terrorism.
    Also, before that even happened, Aum Shinrikyo, the cult in 
Japan, had knocked on the National Health Institute doors for 
both chemical and biological weapons knowledge. I don't want to 
feed you a line here. I did interview weaponeers who knew 
colleagues who had gone to help Iraq and Iran and China and 
North Korea.
    They had been invited to teach. But let us not make the 
assumption that is not all that they did. Let us also not make 
the assumption that these governments would automatically share 
something like smallpox with a terrorist group, because if it 
is anything that a weaponeer understands, it is the 
consequences of unleashing something like that on a population, 
even if it is the population of your enemy. Because that is 
something that goes around the world and would be very, very 
difficult to contain.
    Let us also not make the assumption that smallpox is for 
sale on the streets of Moscow or any other place. In today's 
environment, there are so many rumors that are floating around. 
If I were to give you a remark on the other aspect of your 
question, it would be that if anybody should be getting 
smallpox vaccines in an emergency; it has to be the very people 
who are going to be there. We are expecting them to save our 
lives.
    The medical personnel, both in hospitals and the paramedics 
and other technicians as well as the firefighters and police.
    Mrs. Maloney. Should we be vaccinating them now, in your 
opinion?
    Dr. Smithson. I think I will leave that judgment call to 
others. It is not for me to advocate that. I don't feel that 
there is imminent danger that smallpox is going to be released 
on this country. I think before we go doing a lot of knee-jerk 
things, this is an atmosphere that breeds knee-jerk reaction, 
we need to carefully think through these matters.
    And, by the way, I agree with what Governor--excuse me, I 
just promoted you, Mayor O'Malley said----
    Mr. O'Malley. Thank you. I accept your nomination.
    Dr. Smithson [continuing]. With what Mayor O'Malley said. 
It is not just the frontline personnel, it is also their 
families, because they have to be assured that their family is 
going to be OK if something bad happens.
    Mr. O'Malley. I think the long-term issue of prophylaxing 
your emergency responders, though, it is just that--it is 
slightly longer-term issue, but it is a very important issue. 
We assume that when the calls go out, everybody goes and they 
do their duty. And we have seen the courage. And many and most 
probably will. But ask people to--in these sorts of things, to 
leave their families behind is a tough thing to ask human 
beings to do in these times of emergency.
    But I would think that given the level of vaccinations that 
we currently have, that go doing them all over the country in a 
knee-jerk way would not be a wise use of the limited vaccines 
we have on smallpox.
    Dr. Smithson. Right. The thing is, we need to assure these 
people now what the priorities are going to be, that they would 
be the first to receive these medications, simply because they 
will have to save us.
    Mrs. Maloney. Can I ask one brief show of hands on one 
brief question, Mr. Chairman.
    Mr. Horn. Yes.
    Mrs. Maloney. I would like a show of hands, because we have 
to get on to other people, as the chairman said, of how many 
people agree with Secretary Thompson's statement that he stated 
on 60 Minutes on Sunday? ``We are prepared to take care of any 
contingency, any consequence that develops for any kind of 
bioterrorism attack.''
    Do you agree with this statement of being prepared? Raise 
your hand if you agree you are prepared for all of this.
    Raise your hand if you think we are not prepared.
    Mr. Horn. Well, wait a minute.
    Mr. O'Malley. I think it is all a matter of degrees. I 
don't think that we are prepared for many, many things. And I 
think, depending on the degree of it, we would quickly find 
that preparation outstripped by about----
    Mr. Horn. I remember where the previous administration had 
warehouses all over the place on the flu and nobody ever used 
them. And that is why we need doctors to know, and chemists to 
know if any of this is--otherwise, I don't believe in sort of 
scaring the living daylights out of people. Because--I would 
like Ms. Bonta to respond.
    Dr. Bonta. I think it is dependent upon degrees. Because 
certainly we have experience in the United States where some 
local public health departments are still in buildings that 
were made for the polio epidemic.
    In 1988 when I was with the city of Long Beach, we were in 
just such a building. We had a rotary telephone and we had two 
computers that staff were even not fully trained in how to use. 
We have moved a long way throughout the country, and certainly 
in California we have the advantage of having years and years 
of preparing for earthquake preparedness and other natural 
disasters. But this is a unique situation in which we need more 
work on communication, on training, on laboratory preparedness 
and having disease surveillance and epidemiology.
    LTG. Peake. I would just say, ma'am, you know, I am a doc. 
And so you are the one doc in the ER, and three or four people 
come in, that is a mass casualty. It is a matter of degree. And 
the issue is having the systems back-up that can pull the 
things together where you need it, when you need it, to be able 
to make that response.
    And I think that has sort of been a consistent theme as I 
have heard here.
    Mr. Horn. Thank you. And we thank you. And our last 
questioning goes to Mr. Kanjorski, the gentleman from 
Pennsylvania, 3 minutes.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    I want to make a few observations to the panel, because I 
have been sort of monitoring the channels over the last several 
weeks on television. It seems that if anybody has written a 
book lately, in the extreme has been a guest. And they make all 
of those proposals. And then I have been talking to 
constituents that have a legitimate reason to try and make an 
analysis and a judgment of how they should carry on their daily 
lives.
    And what I am most interested in is the lack of our system 
for having a central clearinghouse operation to adequately 
inform people as to what the risks and various categories are, 
some--what the symptomologies are and what disadvantages of 
taking proactive action.
    One member of the health community made a great point the 
other day. Vaccines, for instance, have a percentage of 
detrimental effects on society. If you were to inoculate the 
entire country, even though it may be one half percent a 
negative effect, you are talking about a million and a half 
people that may suffer irreparable injury as a result of just 
taking the shot itself.
    A lot of people aren't aware of that. They think that it is 
a sure cure. The other things that they aren't aware of is the 
difficulty of delivering the longevity of life of some of those 
biotechnology methodologies that would be used in germ warfare 
and also in gas warfare; what the chances are of getting the 
proper nozzles on a crop duster.
    I guess what I am most interested in, and the observation I 
would make over the last 3 weeks, is that we in government and 
in leadership have a tendency to underestimate the intelligence 
and rationale of the American people. They don't want, even the 
Secretary of HHS, to come out and make a pronouncement. They 
want to know the basis on which his pronouncement was made so 
they can analyze in their own mind what their chances of having 
an exposure would be.
    In order to bring the level of that type of understanding 
up, are you aware of anything that we are doing to create a 
national institute of reliability, if you will, for this 
information, whether it be on the Internet, should we do it in 
the national broadcast--what is the educational factor here?
    Because we just have entirely too many people that are in a 
State of anxiety that shouldn't be there, are giving up their 
normal course of life and business and having a major impact on 
our economy and other things.
    I just came from a session, Mr. Chairman, where we talk 
about security. And after we got to $25 or $30 billion in 
expenses of changing railroad lines and doing all kinds of 
things, which are probably intelligent things to do, I realized 
that we could on our way to spending ourselves into bankruptcy 
in trying to take care of every contingency that could happen 
knowing fully well, the open country that we are, we can't 
accomplish that.
    So do you have any ideas? I'll just ask the panel: What 
could we do to provide a level of intelligence and information 
that would meet the needs of the average American who wants to 
be informed as to what to do and do away with the rumor mills 
that are out there that are paralyzing us?
    Mr. O'Malley. Your point is--I think it is an excellent 
point. One of things we have tried to do through the conference 
of mayors is inform each other and try to encourage well 
informed local officials to talk about these things.
    We had a teleconference with about 200 cities that chimed 
in, and our guests--and the first one was last week. And it was 
done with--on bioterrorism, going through the likely agents. I 
mentioned the Hopkins Center for Civil Biodefense Studies. It 
is www.hopkins-biodefense.org, I think.
    And we are going to be doing one next week on chemical 
readiness. So it would probably be a good idea to have some 
sort of 800 number or something in cities that people could 
call. But fortunately, I think the Internet, I think you are 
right. I think a lot of Americans are educating themselves.
    But we need to do a better job. And I don't think it does 
any of us any good to not discuss it. I know there are some 
local elected officials who feel like, ``Oh, my goodness, if I 
go on camera or talk about this, I might make it worse.''
    Indeed if they are uninformed they may make the hysteria 
worse. So I think it is incumbent on us locally to get the word 
out and do it through our local affiliates.
    Mr. Horn. That is very well answered.
    I would like to now play musical chairs where the group in 
the back, our panel two, and if some of you could stay around, 
we would like that.
    Let us start here with Scott Lillibridge, special assistant 
to Secretary Thompson. Second one is Bruce Baughman, FEMA. 
Craig Duehring from the Department of Defense. Mr. Fogg, New 
Hampshire Office of Emergency Management. Mark Smith, 
Washington Hospital Center, and Kyle Olson, vice president and 
senior associate.
    We will start with Mr. Scott Lillibridge, M.D., special 
assistant to the Secretary for National Security and Emergency 
Management Department of Health and Human Services which is 
headed by one of the best cabinet members I have ever known, 
that is Mr. Thompson. He is on top of it. And I am delighted to 
have one of his special assistants here.
    So, Mr. Lillibridge, proceed to give us a summary of your 
excellent--all of you had wonderful papers, and that 
automatically goes in the record. But we would just like to see 
an overview from you at this point.

STATEMENTS OF SCOTT R. LILLIBRIDGE, M.D., SPECIAL ASSISTANT TO 
 THE SECRETARY FOR NATIONAL SECURITY AND EMERGENCY MANAGEMENT, 
   DEPARTMENT OF HEALTH AND HUMAN SERVICES; BRUCE BAUGHMAN, 
 DIRECTOR, PLANNING AND READINESS DIVISION, FEDERAL EMERGENCY 
 MANAGEMENT AGENCY; CRAIG DUEHRING, PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY OF DEFENSE FOR RESERVE AFFAIRS, DEPARTMENT OF 
   DEFENSE; WOODBURY FOGG, DIRECTOR, NEW HAMPSHIRE OFFICE OF 
 EMERGENCY MANAGEMENT, CO-CHAIR, TERRORISM COMMITTEE, NATIONAL 
EMERGENCY MANAGEMENT ASSOCIATION; MARK SMITH, M.D., WASHINGTON 
      HOSPITAL CENTER, REPRESENTING THE AMERICAN HOSPITAL 
   ASSOCIATION; AND KYLE B. OLSON, VICE PRESIDENT AND SENIOR 
            ASSOCIATE, COMMUNITY RESEARCH ASSOCIATES

    Dr. Lillibridge. Thank you, Mr. Chairman and members of the 
subcommittee. I am Scott Lillibridge, special assistant for the 
Secretary of Health and Human Services, Tommy Thompson, for 
National Security Issues and Emergency Management.
    I appreciate the opportunity to appear before you today to 
discuss the issues and the role in State and local government 
preparedness to respond to acts of terrorism, including 
biological terrorism and chemical terrorism. I would like to 
take heart in the comments that I have heard today from plain-
speaking Amy Smithson about preparedness, the comments from Dr. 
Bonta about State and local preparedness in the public health 
sector, and of course, Baltimore for taking matters into their 
own hands, once again. Thank you.
    At any rate, I would like to acknowledge that our State and 
local public health programs comprise the foundation of an 
effective national strategy for preparedness and emergency 
response. Preparedness must incorporate not only the immediate 
responses to threats such as biological terrorism, it must also 
encompass the broader components of public health 
infrastructure which provide the foundation for immediate and 
effective emergency responses.
    These components include, one, a well-trained, well-
staffed, fully prepared public health work force. Two, a 
laboratory capacity to produce timely and accurate results for 
diagnostics and public health investigations.
    Three, we need epidemiology or disease detective work 
including surveillance for infectious diseases which provide 
the ability to detect health threats urgently.
    Four, we need secure accessible information systems that 
can help us analyze essential information, communicate it 
rapidly, and analyze trends and interpret data.
    And last, of course, we need an effective communication 
system. I believe several members today spoke to the issue of 
important public health information and relating that 
accurately to the public.
    Currently States lack an optimum public health 
infrastructure at both the State and the local level. We will 
need to discuss and make planning on the long-term as part of 
our overall preparedness effort.
    I would like to begin talking about HHS activities and 
preparedness and response, and start with the Centers for 
Disease Control activities.
    The HHS CDC has used funds provided--has provided funds for 
the past several years from Congress to begin the process of 
improving expertise, facilities and procedures of State and 
local health departments to respond to biological and chemical 
terrorism and other acts of terrorism.
    For example, over the past 3 years the agency has awarded 
more than $130 million in cooperative agreements to 50 States, 
one territory and four major metropolitan health departments, 
and has created a bioterrorism preparedness response program 
and other components that anchor as part of that overall 
program, including stockpiles, chemical preparedness, health 
information, and a health alert network.
    We must continue our work with our State and local public 
health systems to make sure that they are more prepared. This 
requires interaction of State departments of health with State 
emergency managers to fully integrate the States' capacity to 
effectively distribute life-saving medications to victims, 
whether it be a biological or a chemical attack.
    The HHS Office of Emergency Preparedness is also working on 
a number of projects to assist local hospitals and medical 
practitioners to deal with the effects of biological, chemical 
and other terrorist acts.
    Since fiscal year 1995, for example, the Office of 
Emergency Preparedness has been developing local metropolitan 
medical response systems [MMRS]. Through contractual 
relationships with local communities, MMRS uses existing 
emergency response systems, emergency management, medical and 
mental health providers, public health departments, law 
enforcement and public health departments, to provide an 
integrated unified response to a mass casualty event.
    As of September 30, 2001 the OEP, Office of Emergency 
Preparedness has contracted with 97 municipalities to develop 
MMRS systems.
    The fiscal year 2002 budget includes funding for an 
additional 25 MMRS systems. MMRS contracts require the 
development of local capacity, capabilities for mass 
immunization, prophylaxis in the first 24 hours following an 
identified disease outbreak, and the capability to distribute 
material deployed to the local site from the National 
Pharmaceutical Stockpile.
    Local medical staff are trained to recognize disease 
symptoms so that they can initiate treatment, and the local 
capability to manage the remains of the deceased are also 
included in this effort. We have important lessons learned from 
the recent September 11th activities.
    First of all, I would like to talk about the response and 
just highlight a few things that I think are quite exciting. 
Second, we were able to respond to two sites with medical 
emergency teams in a matter of hours and provide assistance 
onsite and some cases minutes to hours. And involved on-the-
ground assistance in both Virginia, near the Pentagon, and in 
New York City.
    Our stockpile became operational for the first time in 
terms of deployment, and with a timeline of 12 hours or less we 
actually got it there in 7 hours. That was one of the few 
things able to fly and move during that time of crisis with 
complex coordination with the Federal Aviation Administration 
and the national security community of the United States.
    We had teams in place. Shortly surveillance was enhanced, 
particularly in New York City. Our disease detectives from the 
Centers for Disease Control were onsite amplifying 
surveillance, and working with State and local communities, 
building on the infrastructure, largely since West Nile, to 
enhance local public health capacity.
    A number of important activities have been undertaken by 
the Secretary of Health and Human Services since September 
11th. And they include meeting with pharmaceutical agents, 
accelerating vaccine production, and taking aggressive steps to 
accelerate the development of--long-term development of our 
national pharmaceutical stockpile.
    On the long-term overview, as an indication of the Nation's 
preparedness for bioterrorism, I would like to review a little 
bit about the lessons learned from the Top Off 2000 exercise in 
May 2000.
    This national drill provided scenarios related to weapons 
of mass destruction, to a mass destruction attack against our 
population. It involved the cooperation at the State and local 
level, FEMA, Department of Justice, HHS, Department of Defense, 
and many other vital community sectors that would play a role 
in an actual response.
    While much progress has been made to date, the number of 
important lessons that have been, from that event have begun to 
shape our overall views of preparedness. And they are as 
follows.
    It is clear from the health perspective, and there are many 
ways to look at this, but from the health perspective, 
improving the public health infrastructure, both at the statute 
and local level remain a critical focus of our terrorism 
preparedness and response efforts. Such preparedness is 
indispensable for reducing the Nation's vulnerability to 
terrorism from infectious agents and from other potential 
emergencies through the development of these broad public 
health capacities, again, State and local capacities.
    Second, it would also be extremely important to link 
emergency management services and health decisionmaking at the 
most local levels for the purpose of rapidly addressing the 
needs of larger population, particularly a population affected 
by bioterrorism or other chemical terrorism events.
    I would like to conclude and say a few things on behalf of 
our department, that the Department of Health and Human 
Services is committed to ensuring the health and medical care 
of our citizens, and we have made substantial progress to date 
in enhancing the Nation's capability to respond to a 
bioterrorism event.
    But there is more we can do to strengthen our readiness. I 
was glad to see through a show of hands that people were 
neither convinced that we were ready nor not ready. I think 
that is an important indication that the issue of preparedness 
is a long-term endeavor and will require us to broaden the 
depth and the breadth of our preparedness activities along all 
fronts in this war against terrorism.
    Priorities include strengthening our local and State public 
health surveillance capacity, continuing to enhance our 
national pharmaceutical stockpile, and helping our local 
hospitals and medical professionals better prepare to respond 
to a biological or a chemical attack.
    Mr. Chairman, that concludes my prepared remarks, and I 
would be pleased to answer any questions that you or members of 
the subcommittee may have. Thank you very much.
    Mr. Horn. Thank you very much.
    [The prepared statement of Dr. Lillibridge follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.046
    
    [GRAPHIC] [TIFF OMITTED] T1522.047
    
    [GRAPHIC] [TIFF OMITTED] T1522.048
    
    [GRAPHIC] [TIFF OMITTED] T1522.049
    
    [GRAPHIC] [TIFF OMITTED] T1522.050
    
    [GRAPHIC] [TIFF OMITTED] T1522.051
    
    Mr. Horn. And our second presenter is Bruce Baughman, 
Director of Planning and Readiness Division of the Federal 
Emergency Management Agency [FEMA].
    Mr. Baughman. Good morning, Mr. Chairman, members of the 
subcommittee. I'm Bruce Baughman. I'm Director of Planning and 
Readiness for the Federal Emergency Management Agency. It's my 
pleasure to represent Director Allbaugh at these important 
hearings on biological and chemical terrorism.
    The mission of FEMA is to reduce the loss of life and 
property and assist in protecting the Nation's critical 
infrastructure from all types of hazards. When disaster 
strikes, we provide a coordination and management framework to 
responding Federal agencies and a source of funding for State 
and local governments.
    The Federal Response Plan is the heart of that management 
framework. It reflects the labor of an interagency group that 
meets in Washington and in all 10 of our FEMA regions to 
develop an interagency capability to respond as a team. This 
team is staffed by 26 departments and agencies and the American 
Red Cross, and is organized into interagency functions based 
upon the authorities and expertise of the member organizations 
and the needs of our counterparts in State and local 
government.
    Our plan is designed to augment, not supplant, the response 
systems of State and local government. Since 1992, the response 
plan has been a proven framework for managing major disasters 
and emergencies regardless of cause. It works. It worked in 
Oklahoma City. It worked at the World Trade Center. We're 
basically coordinating the responding teams of 14 agencies 
responding to that event.
    However, biological and chemical attacks present a unique 
challenge. Of the two, I am more concerned about biological 
terrorism. A chemical attack is very similar to a large-scale 
HAZMAT incident. Through the National Response Center, the 
National Contingency Plan, the Environmental Protection Agency 
and the Coast Guard, managed systems that can act, local, State 
and Federal responders, and the chemical industry, these 
systems are used routinely in HAZMAT incidents. EPA and the 
Coast Guard are also the primary agencies for hazardous 
material function under our plan.
    The model we will use, it is our intent to use this model 
in the event of a chemical attack. However, to make this model 
robust and functional, we need to provide additional training 
for first responders at the State and local level and 
equipment.
    In an undetected biological attack, first responders would 
be doctors, hospital staff, animal control workers, instead of 
police, fire and emergency medical personnel. Connections 
between nontraditional first responders and the larger Federal 
response is not routine. The Department of Health and Human 
Services is the critical link between the health and medical 
community and the larger Federal response. FEMA works closely 
with the Public Health Service as the primary agency for health 
and medical under the Federal Response Plan. We rely on them to 
bring the right expertise to the table when we meet to discuss 
potential biological events and how they will spread and the 
sources and techniques that will be needed to control them.
    We are making progress. As Scott mentioned, Exercise TOPOFF 
in May 2000 involved a chemical attack on the East Coast 
followed by a biological attack in the Midwest. We have 
incorporated these lessons learned in the exercise into our 
response procedures. This process is active and ongoing. It 
takes time and resources to identify, develop and incorporate 
changes into the system.
    In January 2001, the FBI and FEMA jointly published the 
U.S. Government's Interagency Domestic Terrorism Concept of 
Operation, or CONPLAN. The Departments of Health and Human 
Services, Defense, Energy and the Environmental Protection 
Agency were part of that plan. Together, the CONPLAN and the 
Federal Response Plan provide the framework for managing the 
response to the causes and consequences of terrorism.
    On May 8th, the President asked that the Vice President 
oversee the development of a coordinated national effort 
regarding domestic preparedness. The President also asked that 
the Director of FEMA create an Office of National Preparedness 
to coordinate Federal programs dealing with preparedness for 
and response to terrorists' use of weapons of mass destruction. 
In July, the Director formally established the office at the 
FEMA headquarters and had staff elements in each of the 10 FEMA 
regions.
    On September 21st, in the wake of the horrific terrorist 
attack at the World Trade Center and the Pentagon, the 
President announced the establishment of the Office of Homeland 
Security and the Office of the--in the White House to be headed 
by Governor Ridge of Pennsylvania. The office will lead, 
oversee and coordinate the national strategy to safeguard the 
country against terrorism and to respond to the attacks that 
may occur. It is our understanding that the office will 
coordinate a broad range of policies and activities related to 
the prevention, deterrence and preparedness and response. The 
office includes the--a Homeland Security Council comprised of 
key Federal departments and agencies, including the Director of 
FEMA.
    We expect to provide significant support to this office in 
our new role as the lead Federal agency for consequence 
management.
    Mr. Chairman, you convened this hearing to ask about our 
preparedness to work with State and local government agencies 
in the event of a biological and chemical attack. Terrorism 
presents tremendous challenges. We rely heavily on the 
Department of Health and Human Services to coordinate the 
efforts of the health and medical community to address 
biological hazards. We also rely on the Environmental 
Protection Agency and the Coast Guard to coordinate the efforts 
of the hazardous material community to address chemical 
hazards. They need your support to increase the national 
inventory of response resources and capability. FEMA needs your 
support to ensure that the system that the Nation uses 65 times 
a year to respond to major disasters has the tools and the 
capacity to adapt to a biological and chemical attack on any 
other weapon--or any other weapon of choice.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions at this time.
    Mr. Horn. Well, I thank you.
    [The prepared statement of Mr. Baughman follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.052
    
    [GRAPHIC] [TIFF OMITTED] T1522.053
    
    [GRAPHIC] [TIFF OMITTED] T1522.054
    
    [GRAPHIC] [TIFF OMITTED] T1522.055
    
    [GRAPHIC] [TIFF OMITTED] T1522.056
    
    [GRAPHIC] [TIFF OMITTED] T1522.057
    
    [GRAPHIC] [TIFF OMITTED] T1522.058
    
    Mr. Horn. We have a little problem here as usual. We're 
sent here to vote, and we're now down to the 10-minute bit. And 
that is the 10-minute warning. And so we're going to go into 
recess until 12:35, 12:40, and right below us in the basement 
is the splendid, fine, wonderful restaurant known as the 
Rayburn cafeteria. So we'll be glad to see you back here, and 
we'll get to work at 12:35.
    [Recess.]
    Mr. Horn. The agriculture bill now passed in the House of 
Representatives, and we are out of recess, and at 12:35 we will 
start now with Craig Duehring, the Principal Deputy Assistant 
Secretary of Defense for Reserve Affairs of the Department of 
Defense. Mr. Duehring, we're glad to have you here.
    Mr. Duehring. Good afternoon, Mr. Chairman. Thank you for 
the invitation to testify before you today on the Department of 
Defense's continuing efforts to ensure a strong national 
defense against domestic terrorists using weapons of mass 
destruction, or simply WMD. America's National Guard and 
Reserves are critical to our Nation's capability to support an 
enhanced and integrated Federal, State and local response to 
incidents involving weapons of mass destruction.
    We're going to use the term ``consequence management'' 
quite often. At DOD we define WMD consequence management as 
emergency assistance to protect public health and safety, 
restore essential government services and provide emergency 
relief to those affected by the consequences of an incident 
involving WMD agents, whether they are released deliberately, 
naturally or accidentally. DOD normally provides such 
assistance only in response to requests from the appropriate 
lead Federal agency to support specific State and local 
authorities in mitigating the consequences of a domestic, 
nuclear, chemical, biological, radiological or high-yield 
explosive incident.
    My testimony today will provide a brief description of 
DOD's role in Federal response preparations, as well as an 
overview of the initiatives we have undertaken to better 
prepare us to provide the support requested. Presidential 
decision directives established 3 years ago directed the U.S. 
Government to enhance its plans and policies to protect against 
unconventional threats to the homeland and Americans overseas. 
Since then there has been a concerted effort to identify and 
streamline Federal agency coordination mechanisms to address 
the growing possibility of asymmetrical assaults on U.S. 
vulnerabilities at home and abroad.
    These efforts focus primarily on establishing policies and 
programs to enhance the Nation's preparations to thwart and, if 
that fails, respond to terrorists' use of weapons of mass 
destruction or cyber-warfare. Federal agency consequence 
management responsibilities and the need for extensive 
interagency coordination and response to a significant 
terrorist incident here or at home have been delineated in the 
documents that were presented 3 years ago, but which today 
still serve as the basis for all current Federal disaster 
response plans.
    Today Federal response to a WMD incident in the United 
States will likely involve many agencies of the U.S. 
Government, each bringing specialized talents and expertise 
honed in the execution of larger programs designed for purposes 
other than terrorist attacks. No one agency possesses all the 
talents, but a few such as the FBI, FEMA and HHS know they have 
lead responsibilities to coordinate our Federal response to 
national emergencies.
    The Federal Response Plan articulates that distribution of 
the responsibilities and authorities for cooperation and 
coordination for disaster response. In the event of an 
incident, we recognize that those closest to the problem are 
going to be the first to respond, but the presumption is that 
in the event of a catastrophic incident, those State and local 
capabilities may be quickly overwhelmed. If a civilian 
authority requests Federal support, the lead Federal agency, 
FBI, or FEMA, for example, is likely to request support from 
many other Federal agencies including the Department of 
Defense.
    We have undertaken a number of steps within the department 
to address how we will support the Nation in responding to 
incidents involving weapons of mass destruction. First, we have 
sought to define more clearly what the department's role should 
and should not be. We do not call consequence management 
homeland defense, but refer to it rather as civil support. This 
reflects the fundamental principle that DOD is not in the lead, 
but is there to support the lead Federal agency in the event of 
a domestic disaster contingency.
    Four principles guide DOD's response in the event of a 
domestic WMD contingency. First, there will be an unequivocal 
chain of accountability and authority for all military support 
to civil authorities. Second, DOD's role is to provide support 
to the lead Federal agency. Third, though our capabilities are 
primarily war-fighting capabilities, the expertise that we have 
gained as a result of the threats that we have faced overseas 
can be leveraged in the domestic arena as well. DOD also brings 
communications, logistics, transportation and medical assets, 
among others, that can be used for civil support. And fourth, 
our response will necessarily be grounded in the National Guard 
and Reserves as our forward-deployed forces for domestic 
operations.
    The National Guard and Reserves will play a prominent 
support role for State and local authorities in consequence 
management. DOD has assigned full-time National Guard WMD civil 
support teams in 27 States to provide as part of a State 
emergency response capability the first wave of support to 
overwhelmed local incident commanders in dealing with incidents 
involving weapons of mass destruction. We will soon announce 
the stationing of five new teams authorized by Congress last 
year in five additional States, bringing the total to 32 civil 
support teams.
    These teams are comprised of 22 highly skilled, full-time, 
well-trained and equipped Army and Air National Guard 
personnel. These teams provide specialized expertise and 
technical assistance to the local incident commander in, first, 
facilitating on-scene communications and command and control 
among the different responding agencies; second, exchanging 
technical data and information with military laboratory experts 
on weaponized chemical and biological agents; and finally, 
helping to shape or revise the local incident commanders' 
response strategy based on the specific chemical, biological or 
radiological agents found at the scene.
    The WMD civil support teams are unique because of their 
Federal-State relationship. They are federally resourced, 
federally trained, and expected to operate under Federal 
doctrine, but they will perform their mission primarily under 
the command and control of the Governors of the States in which 
they are located. Operationally they fall under the command and 
control of the adjutants general of those States. As a result, 
they will be available to respond to an incident as part of a 
State response, well before Federal response assets would be 
called upon to provide assistance.
    During fiscal year 2002, DOD will also continue to train 
and sustain 100 chemical decontamination and 9 reconnaissance 
platoon-sized elements in the Army Reserve. Medical patient 
decontamination teams in the National Guard and Air Force 
Reserve will receive additional training in domestic response, 
casualty decontamination. They will be provided with both 
military and commercial off-the-shelf equipment and will 
receive enhanced training in civilian HAZMAT procedures.
    I have more information dealing with the domestic 
preparedness program and also with WMD advisory panel.
    Mr. Horn. Why don't we put it in the hearing, without 
objection, so it can be distributed.
    Mr. Duehring. Yes, sir. And I'll be happy to answer any 
questions that you have.
    [The prepared statement of Mr. Duehring follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.059
    
    [GRAPHIC] [TIFF OMITTED] T1522.060
    
    [GRAPHIC] [TIFF OMITTED] T1522.061
    
    [GRAPHIC] [TIFF OMITTED] T1522.062
    
    [GRAPHIC] [TIFF OMITTED] T1522.063
    
    [GRAPHIC] [TIFF OMITTED] T1522.064
    
    [GRAPHIC] [TIFF OMITTED] T1522.065
    
    [GRAPHIC] [TIFF OMITTED] T1522.066
    
    [GRAPHIC] [TIFF OMITTED] T1522.067
    
    [GRAPHIC] [TIFF OMITTED] T1522.068
    
    [GRAPHIC] [TIFF OMITTED] T1522.069
    
    [GRAPHIC] [TIFF OMITTED] T1522.070
    
    [GRAPHIC] [TIFF OMITTED] T1522.071
    
    Mr. Horn. Well, I have one right now. I noticed in the 
paper this morning that Deputy Secretary of Defense Wolfowitz 
is the--mentioned the Posse Comitatus situation, and I wonder, 
was the Reserve involved in that particular situation?
    Mr. Duehring. I'm not aware of what that particular 
situation is. I am aware of the Posse Comitatus, and when the 
National Guard operated in a State setting, in a call-up by the 
Governor, of course, then their rules are different than if 
they were Federalized. So I'd have to give you kind of a 
general answer. I can't be specific because I don't really know 
what it was they were referring to.
    Mr. Horn. Well, I can understand that, but I think it said 
he had a 71-page memo on the subject.
    I happen to agree with him. I read that 30 years ago. So it 
isn't new to me, but I would like to have anything you have to 
put at this point in the record.
    Mr. Duehring. Yes, sir.
    Mr. Horn. Thank you.
    We'll go to Mr. Fogg, who is the director of the New 
Hampshire Office of Emergency Management and co-chair of the 
Terrorism Committee, National Emergency Management Association. 
Mr. Fogg.
    Mr. Fogg. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear. I am here today 
representing the National Emergency Management Association, 
NEMA, whose members are the Directors of Emergency Management 
for the States and territories. We're the ones responsible to 
our Governors for disaster mitigation, preparedness, response 
and recovery. This includes responsibility for terrorism, 
consequence management and preparedness in each of our States. 
We each serve as the central coordination point for our State's 
response activities and interface with Federal agencies.
    I serve as the current co-chair of NEMA's Terrorism 
Committee along with Peter LaPorte, the director from the 
District of Columbia Emergency Management Agency. NEMA's 
Terrorism Committee has been actively engaged for a number of 
years on this topic.
    I also serve as chairman of the Northeast States Emergency 
Consortium [NESEC], comprised of the Emergency Management 
Directors for the six New England States, plus New York, plus 
New Jersey.
    And I'd like to begin by thanking you all for recognizing 
the importance of preparing for acts of terrorism. We need and 
appreciate your support for what we must accomplish.
    We've taken an all-hazards approach to disaster 
preparedness, and I want to emphasize that, all-hazards 
approach, and, therefore, we're able to integrate into our 
domestic preparedness efforts those proven systems we already 
use for dealing with natural and technological disasters. We 
also recognize clearly the value of prevention and mitigation 
in minimizing the consequences of disaster, and we incorporate 
those considerations in all our planning.
    NEMA has developed a list of recommended enhancements to be 
incorporated into a nationwide strategy for attaining better 
preparedness for catastrophic events. The full text of these 
recommendations is included in the attached NEMA white paper 
for your reference.
    I'd like to highlight the highest priority items in my 
testimony today, and before I do that, I'd just like to make 
the point that the lessons learned from the September 11th 
attacks are not brand new ideas. Many are concepts we've been 
working on for years and just have not yet had the resources to 
fully implement.
    Now is the time for Federal, State and local governments to 
take action. It is not the time to prepare reports or criticize 
past actions or issue sweeping new directives. You have our 
detailed written testimony, which is fairly comprehensive, but 
the committee asked us to focus on how the Federal Government 
can best work with State and local governments to deal with 
chemical and biological terrorist attacks, so I'll limit my 
comments to that issue.
    There are four main points. No. 1, our Nation requires an 
overall national, not Federal, national domestic preparedness 
strategy that is developed collaboratively with full 
involvement by local, State, Federal and private partners, and 
it is built upon existing all-hazards plans and systems. This 
national preparedness strategy must be a pillar of our national 
and homeland security strategy; that is, the preparedness 
component and the law enforcement component together comprise 
our all security strategy. We should base that strategy on 
tried and proven all-hazards systems, particularly the Federal 
Response Plan, the Incident Command System and our Emergency 
Management Assistance Compact [EMAC], that 41 of our States and 
territories have adopted, with others in process.
    We need the Federal Government to be a catalyst, an 
enabler, not a controller, and we also need to use the system. 
Don't bypass the States in their role in coordinating statewide 
and regional plans. Oftentimes we hear about going directly to 
the municipalities, and that is great. It gets money where it 
needs to go, but it leaves the States out of their coordinating 
role, and we need to be very careful with that.
    Two, our Nation's preparedness for catastrophic events 
would be well served by strengthening our regional 
capabilities. Strong consideration should be given to 
developing that strategy by strengthening our regional 
capabilities to provide a rapid, flexible response capable of 
dealing with multiple mass casualty events occurring in 
different places at the same time. If we put all our resources 
in one place, we could get in trouble real quick.
    Our Federal agencies can help by delegating decisionmaking 
authority to their regional offices. Some do that quite well 
now. Director Allbaugh at FEMA is pushing that concept, and 
that has worked well in the past.
    Mr. Horn. Let me ask at that point, is that the Federal 
Government regional areas? There are about 10 they've blocked 
out over the last 30 years, and you want to operate within that 
area?
    Mr. Fogg. That's correct, sir, that's correct. Delegate the 
authority to make decisions and make plans to that level. And 
what that does is develop those relationships, that trust and 
credibility that is so important in crisis situations, and 
understanding each other's resources, constraints, methods of--
modus operandi, if you will, and it eliminates the who's in 
charge in the turf, and we found that out. That was one of the 
major lessons learned from our TOPOFF Exercise. And we hosted 
one of the venues in New Hampshire. Those agencies who had 
developed those relationships and used them succeeded. The 
others did not.
    We would encourage broader use of existing regional 
relationships, and I will just cite NESEC as an example, at 
Northeast States Emergency Consortium. The details are in the 
written testimony, but it's been done at very little 
incremental cost. We expanded on existing structure, and it's a 
good use of Federal support.
    The other thing we should do is develop our international 
relationships. I think we've overlooked that in the Federal 
emergency management field.
    Three, medical surge capacity is the main key to dealing 
with mass casualty events, regardless of cause. The most 
noticeable hole in our system is our limited ability to access 
and deliver surge capacity rapidly to the site of a mass 
casualty event. We have some impressive national capabilities, 
but we need more local and regional capacity close to home to 
deal with true mass casualties until a cavalry can get there. 
We need one of those disaster and medical assistance teams 
widely dispersed. There are some parts of our country that now 
are not covered very well by that system. We need to fill those 
gaps, and we need faster access to military reserve medical 
units with their own deployable equipment. And I really want to 
wave the flag on that one.
    We need to assist the health care industry in restoring a 
surge capacity to our hospitals. The pressures of managed care 
have virtually eliminated that surge capacity, and we need to 
work together to restore some of it.
    Four, the other real key to preparedness is timely sharing 
and dissemination of critical intelligence information to those 
who really need to know. Commissioner Norris said it very well 
this morning. But don't leave the State police and the county 
sheriffs out. All levels have got to be involved in sharing of 
pertinent intelligence. Again, for the same reason, the State 
folks need to be able to sort that out on a statewide level and 
work with their local counterparts and Federal counterparts to 
direct resources where they need to go.
    And the other main issue about the intelligence issue is--
and it is about--it lets the health care system and the other 
first responders have a heightened awareness about the 
potential symptoms. It gives them a heads-up, gives them a 
little warning, and it lets them avoid being second victims and 
to contain the spread and effect of the agent.
    And last, on sharing the intelligence, use the 
compartmented need-to-know system that the military uses. It 
works quite well. But we need to have greater reciprocity of 
security clearances between Federal agencies. Right now if 
you've got a FEMA clearance, you can't see DOD stuff. If you've 
got a DOD one, you can't see Health and Human Services stuff. 
We need to clean that up so we can share intelligence 
effectively.
    Let me summarize. No. 1, we need a clear national domestic 
preparedness strategy built collaboratively at all levels, 
local, State, Federal and private. Two, we need to consider 
strongly strengthening our regional capacities. Three, we need 
to increase our mass casualty surge capability, especially 
regionally and locally. And four, we need to improve 
intelligence-sharing across the board.
    I want to end by emphasizing----
    Mr. Horn. That has been the suggestion, and I think we're 
going to have to go to your two other colleagues to----
    Mr. Fogg. OK. I just have one more sentence here. I want to 
end by emphasizing that we should buildupon the proven systems 
that we have in place and not reinvent the wheel. Add a spoke 
or two, maybe even combine some, and definitely make the wheel 
turn faster, but please, let's not come up with a new wheel. 
And remember, this is not just about terrorism. It is about 
all-hazards preparedness. Thank you.
    Mr. Horn. Well, thank you. That was very lucid.
    [The prepared statement of Mr. Fogg follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.072
    
    [GRAPHIC] [TIFF OMITTED] T1522.073
    
    [GRAPHIC] [TIFF OMITTED] T1522.074
    
    [GRAPHIC] [TIFF OMITTED] T1522.075
    
    [GRAPHIC] [TIFF OMITTED] T1522.076
    
    [GRAPHIC] [TIFF OMITTED] T1522.077
    
    [GRAPHIC] [TIFF OMITTED] T1522.078
    
    [GRAPHIC] [TIFF OMITTED] T1522.079
    
    [GRAPHIC] [TIFF OMITTED] T1522.080
    
    [GRAPHIC] [TIFF OMITTED] T1522.081
    
    [GRAPHIC] [TIFF OMITTED] T1522.082
    
    [GRAPHIC] [TIFF OMITTED] T1522.083
    
    [GRAPHIC] [TIFF OMITTED] T1522.084
    
    [GRAPHIC] [TIFF OMITTED] T1522.085
    
    Mr. Horn. Dr. Smith, Mark Smith is from the Washington 
Hospital Center, very distinguished institution in Washington, 
representing the American Hospital Association. Dr. Smith.
    Dr. Smith. Thank you, Mr. Chairman. I'm Mark Smith, the 
chair of emergency medicine at Washington Hospital Center in 
Washington, DC, and I'm here today on behalf of the American 
Hospital Association's nearly 5,000 hospitals, health systems, 
networks and other health care provider members. We appreciate 
the opportunity to present our views on hospital readiness for 
a potential terrorist attack utilizing chemical, biological or 
radiologic weapons, as well as explosives, incendiaries and 
other more traditional means of destruction.
    The special responsibilities of hospitals in a terrorist 
attack is to treat, manage and mitigate the acute medical 
consequences that occur, and as this great Nation enters into a 
war on terrorism, the American people and government officials 
need to have confidence in our hospitals and our systems of 
health care, and I have no doubt that American hospitals will 
rise to the occasion just as they did on September 11th, 
hospitals in New York and New Jersey, Virginia and Washington, 
DC, who relied on their training, their experience and their 
prior disaster planning. They performed outstandingly. The 
hospital system worked.
    Here at Washington Hospital Center, the regional burn 
center for Suburban Maryland the District of Columbia and 
Virginia, we treated 15 survivors from the Pentagon. Many of 
the victims were severely burned. On September 11th, we were 
all part of a seamless single system of rescue, fire, police, 
EMS, hospital, and it was not only those hospitals that 
directly cared for the victims. Our region's vast network of 
hospitals responded. At Washington Hospital Center that 
morning, we received offers of aid and assistance from Malcolm 
Grove Medical Center, University of Maryland Medical Center, 
Johns Hopkins, and MedStar Health's Baltimore hospitals, offers 
of personnel, ventilators, medical supplies and hospital beds, 
whatever was needed.
    America's hospitals were ready for the foreseeable, but now 
we must plan for what once seemed extraordinary. To date the 
AHA has created a disaster readiness site on its Web page, 
engaged in frequent communication about biological and chemical 
preparedness with hospitals across America and sent out two 
advisories on hospital readiness. Preparedness work that had 
occurred quietly behind the scenes during the past several 
years is coming out at the public view, such as the District of 
Columbia Hospital Association's Mutual Aid Plan led by Dr. Joe 
Barbera, or the ER-1 Readiness Project at the Washington 
Hospital Center to develop the design specifications for an 
all-risks emergency department, one that has national 
capability built into it to manage the medical consequences of 
these terrorism disasters and epidemics.
    To meet the new challenges that we now face, our 
recommendations include the following: First, integration of 
hospitals with police, fire, EMS and public health needs to 
occur to a much greater level than exists today. Although not 
traditionally thought of as such, hospitals are, in fact, one 
of the core elements of a community's public safety 
infrastructure. Hospital is the final destination of every 
public service agency when injury, illness or acute exposure 
occurs.
    Two, hospitals need to increase inventories of drugs, 
antibiotics to combat the effects of chemical and biological 
weapons such as anthrax, nerve gas.
    Hospitals need to increase reserves of ventilators, 
monitors, stretchers, all the basic equipment and supplies 
needed to treat victims of a mass disaster event.
    Hospitals need much more robust systems for communicating 
in real-time with other hospitals and with public service 
agencies in order to better coordinate care for victims. 
Information provides light, and we are often in the dark.
    Hospitals need improved systems of surveillance detection 
and reporting in order to identify potential biologic outbreaks 
as early as possible.
    Hospitals need backup water supplies or auxiliary power 
sources and adequate fuel storage. We need our hospitals to be 
secure and safe under all conditions.
    Hospitals need to be able to utilize nurses and health care 
personnel who are not licensed locally, but who are licensed in 
other parts of the country.
    Hospitals need enhanced stability that currently exists to 
decontaminate contaminated patients and then to expeditiously 
care for them.
    In order to implement those recommendations, we need 
people, health care workers, and right now American hospitals 
are facing a severe work force shortage. Hospitals nationwide 
have 126,000--this shortage cuts right to the heart of 
communities across America and to our ability to be ready for 
any need. Legislation has been introduced to address the work 
force shortage, and we urge its passage.
    Our Nation's nurses, doctors and health care workers 
answered the call on September 11th and stand ready to do so 
again, whenever and wherever it comes. But let me leave you 
with my final--the summation thought, which is that America's 
hospitals need to be considered and treated for what they, in 
fact, really are, an integral part of our public safety 
infrastructure.
    Thank you.
    [The prepared statement of Dr. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.086
    
    [GRAPHIC] [TIFF OMITTED] T1522.087
    
    [GRAPHIC] [TIFF OMITTED] T1522.088
    
    [GRAPHIC] [TIFF OMITTED] T1522.089
    
    [GRAPHIC] [TIFF OMITTED] T1522.090
    
    [GRAPHIC] [TIFF OMITTED] T1522.091
    
    [GRAPHIC] [TIFF OMITTED] T1522.092
    
    [GRAPHIC] [TIFF OMITTED] T1522.093
    
    [GRAPHIC] [TIFF OMITTED] T1522.094
    
    [GRAPHIC] [TIFF OMITTED] T1522.095
    
    [GRAPHIC] [TIFF OMITTED] T1522.096
    
    Mr. Horn. Can you give us that nurse estimate? Is it 
128,000?
    Dr. Smith. 126,000.
    Mr. Horn. 126,000. Thank you very much.
    And now we go to--maybe Mrs. Maloney would like to 
introduce him--Kyle Olson, vice president, senior associate, 
Community Research Associates.
    Mrs. Maloney. His resume is quite long, quite 
distinguished. He's been at the head of this issue for many 
decades. Many of you may have already met him, as I did, 
originally from his many statements on television, 60 Minutes, 
Dateline, Frontline. He's been on the front- line on this 
issue, and I'm pleased that he's been a constituent of mine, 
and I am very delighted that he was able to join us, and I 
thank you, Mr. Chairman, for allowing him to be part of the 
panel. I always find his insights incredibly important on this 
important issue. Thank you for coming.
    Mr. Olson. Thank you, ma'am.
    Mr. Horn. Mr. Olson, you're vice president and senior 
associate to the Community Research Associates. Is that sort of 
a consulting firm to hospitals?
    Mr. Olson. Well, by way of disclosure, I will acknowledge 
that I have been, am now, and hopefully after my remarks today 
will continue to be a scum-sucking government contractor. My 
firm has worked with the Department of Justice, Department of 
Defense, State and local governments for a number of years, 
particularly in the area of WMD training, preparedness and 
other support. I will also acknowledge that my remarks today 
have not been reviewed, probably a mistake on my part, by any 
of those entities.
    Again, I want to thank you for the opportunity to speak 
today and offer my thoughts on the biological and chemical 
terrorism problem to this committee. In the aftermath of the 
tragic events of September 11th, the specter of terrorists' use 
of weapons of mass destruction has gone from being a remote 
possibility that is probably worth planning for to one more 
aspect of what has become a national nightmare. Many have 
looked at the threat posed by chemical and in particular 
biological weapons for the very first time in the last few 
weeks, while others, including many of today's witnesses, have 
been working on this problem for a long time.
    Today you, me, all of us are being asked by the American 
public for an answer that will put, frankly, this grim genie 
back into the bottle and let us get back to our lives. 
Unfortunately, there is no silver bullet that is going to slay 
this monster, nor ensure that it is going to stay in the grave 
once it's put there. Even as we focus on Osama bin Laden and 
his organization, we have to confront the truth. He is not the 
first nor will he be the last man to covet weapons of mass 
destruction. After we run him to ground, we will still have to 
deal with the potential that these weapons, created in the 
middle of the last century, will wreak havoc on the new. To 
that end, it is important that the answers be simple, that they 
be complete.
    It has been suggested that the efforts made to ready cities 
of this Nation to respond to WMD terrorism have been lacking. 
They've been characterized as a mile wide and an inch deep. 
This much is true. We could have done more. We can always do 
more. Navy exercises could have been more demanding. Maybe the 
training could have been more complete. Yet it is also true 
that the Nunn-Lugar-Domenici training and exercise program 
introduced thousands of first responders to a threat that they 
had never even thought about. New problems demanded new 
responses and new ideas from police, fire and emergency 
managers, and they worked those problems in the context of that 
program. As a result, there is no doubt we are far better 
prepared today than we were 5 years ago, particularly for 
potential chemical use.
    On the other hand, the argument has been made all too 
convincingly that our health establishment is still ill-
equipped to deal with bioterrorism. I don't argue that point. 
Over the course of the last 4 or 5 years, the element of 
emergency services that has been most consistently a no-show at 
these integrated training and exercises has been the medical 
community. For whatever reason, time constraints, budgetary 
limitations, skepticism, in many cities the doctors have not 
been in the tent, and now we are seeing evidence that this is 
changing. Yesterday's news out of Florida suggests that this 
foxhole conversion comes none too soon. Serious work remains to 
be done.
    For example, while it is true that we have Federal 
stockpiles of drugs, we do not have plans that have been tested 
for distribution of those drugs in the event of a major 
biological event. We have plans on paper that have not been 
field-tested by and large.
    But before we join those who fully discount our 
preparations, consider this. When the World Trade Center fell, 
New York City activated an emergency response system that had 
for years deliberately tested itself against the darkest WMD 
scenarios, chemical, biological, even radiological. New York's 
leaders understood perhaps better than the rest of us that the 
world's first city was terrorism's potential primary target, 
and so they prepared themselves. They took advantage of Federal 
training, exercises, equipment, funding and other help. They 
pushed, they grabbed, they shook the money tree. They played 
Federal agencies against each other. They enjoyed using those 
duplicative programs that everybody complains about, and at the 
end of the day, after a lot of work and a lot of soul-
searching, the city's emergency management system was 
structured to deal with an event that could leave 5,000 or more 
New Yorkers dead.
    New York's planners invented ways to work around the loss 
of power, communications, transportation. They even confronted 
the possibility of losing scores of men and women from the 
city's now legendary fire and police departments. Because they 
did all these things and thought their way through all these 
horrible ideas, New York City was better prepared than any city 
on Earth when those towers fell. Observers have noted that the 
city didn't quit. It wept. We all wept. But New York got up and 
fought, and I believe beyond the spirit of the city's people 
that the training helped. No, september 11th was not sarin, and 
it wasn't smallpox, but it was mass destruction. The responders 
in New York had been encouraged to think about the unthinkable, 
and when it became real, those same responders' actions saved 
more than 20,000 lives.
    A similar story played out here in Arlington, VA, where the 
capital-area responders after years of preparation managed an 
efficient, professional response in the attack on the Pentagon.
    As we discuss where the Nation must go in the days ahead, 
as Congress and the administration consider how to invest our 
hope and our treasure, I hope we can appreciate that the 
efforts of the past 5 years have not been wasted. They haven't 
been perfect. What government program ever has been? But they 
have not been wasted.
    Much of the criticism directed against the current 
hodgepodge of Federal agencies arrayed against terrorism is, I 
would argue, a little bit out of date. There truly has been a 
shake-out over the last couple of years with a broader 
understanding of the way things are supposed to work. It is a 
little bit wider appreciated now. It's not a streamlined 
system, but its functions have become more sophisticated and 
better targeted over the last several years. We still have 
overlaps, there are still food fights at budget time, but 
responder agencies at the State and local level have in many 
cases a pretty good idea of where to go to get help.
    A major restructuring in the middle of everything else that 
is going on right now holds out the potential for confusion 
rather than clarity. I don't know that the best course for this 
government is to pursue a single homeland defense 
counterterrorism agency that tries to do everything well and 
ends up doing many things poorly. I actually tend to believe 
that competition among competing ideas is a pretty good idea.
    I've seen the wiring diagrams. I know there's urgency to 
rearrange the deck chairs, but I also know that the small 
successes of the first few days of the last few weeks in this 
bizarre, necessary twilight world we are embarking upon stemmed 
from earnest to frequently clumsy efforts to make a difference. 
As you consider the path forward, as we all wrestle with the 
unimaginable, let's remember the instructions given to 
physicians when they enter into practice: First, do no harm. 
Thank you.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHIC] [TIFF OMITTED] T1522.097
    
    [GRAPHIC] [TIFF OMITTED] T1522.098
    
    [GRAPHIC] [TIFF OMITTED] T1522.099
    
    Mr. Horn. Let's start the questioning. I'm going to take 5 
minutes, and I'd like to know from Mr. Lillibridge and Mr. 
Duehring, Mr. Fogg and Mr. Olson in particular in educating 
people through professional conferences that go on all over 
America, are we giving training from the Federal side and 
having people at these conferences so they can bring people up 
to the level that they ought to be if they're going to really 
be useful? I just wondered how we're using the grant money.
    Dr. Lillibridge. Thank you, Mr. Chairman. I would also ask 
after a few minutes that I be dismissed, I have some other 
pressing engagements, but I'd like to answer that question as 
best we can.
    We could always do more, but let me tell you what's in 
progress and what's been done along that avenue.
    First, we've worked with both the Department of Defense to 
do satellite broadcasts to reach as many as 18,000 health 
providers at a time. These have been highly successful and have 
dealt with both chemical and biologic weapons response on the 
health and medical sector.
    The second thing is that we've also partnered with the 
major guilds, professional organizations, and there are a huge 
number of preparedness efforts in terms of training at these 
annual and regional meetings, and those are ongoing.
    Recently we've also looked forward to the partnership at 
HHS with FEMA on linking emergency management and training at 
the State, local level in terms of integrating our capacities 
in those areas.
    Mr. Horn. Well, we'll just go down the line. Mr. Baughman, 
any thoughts on this as to grants and how we get that--people 
across the country, be it hospital administrators, doctors, 
also in our medical schools and our public health schools, and 
I suspect the--I would hope the public health schools in 
America would certainly have a course on terrorism and all the 
rest?
    Mr. Baughman. I think one of the things we do need to do is 
to work closer with our public health partners at the State and 
local level. At the Federal level--and we can talk about the 
State level--we work at that level, but what is lacking right 
now is guidance, guidance to put out to State and health 
providers, local health providers on what they ought to be 
doing.
    An example is right now. What--the word that we ought to be 
putting out to the American public on what should we be doing 
as far as protection and guidance. As a matter of fact, we had 
a dialog with HHS the day before yesterday on this, but I think 
what State and local health providers are hungry for is a lot 
more guidance on what they ought to be doing to make their 
health care network more robust in light of a WMD-type 
scenario.
    Mr. Horn. Mr. Duehring.
    Mr. Duehring. Well, sir, the training that the Department 
of Defense does is oriented pretty much toward practical hands-
on application for our own people, and that is continuing. That 
is ongoing. We have, of course, wartime commitments that 
parallel the threat that you have here in the United States, 
and I addressed that very briefly in my opening comments.
    Now, in addition to that, under the 1997 defense 
authorization bill, called the Nunn-Lugar-Domenici Act, we were 
tasked initially to go out and conduct training with 
communities, and there has been references today about the 
training that had gone on in New York. That was part of that 
program. We actually trained leaders of these various cities 
and 105 communities. But the provisions of that bill have now 
expired. So, to my knowledge, the only other agency that is 
involved now would be the Department of Justice, and they may 
have a little more to add, if they are here.
    Mr. Horn. Mr. Fogg.
    Mr. Fogg. From a State level, I would say that the National 
Governors Association, FEMA, through the Emergency Management 
Institute, all of our other Federal partners have been 
providing good training, and we've been delivering it. The 
problem--and we've been getting a lot of guidance in terms of 
planning, you know, how to do planning, and of course we have a 
pretty good--we know how to do that ourselves, but the problem 
is we need to link and coordinate those various offerings from 
all the different agencies and coordinate them so we get the 
best bite at a local responder's limited time. Most of them are 
volunteers. There's plenty of training out there, but focusing 
it, coordinating it so they get the best use of their time so 
we can attract them is an important thing.
    And last, I would say the place we really need to 
concentrate some effort is on exercising. We can have great 
plans, we can have great training, but if we don't exercise 
them, you know, to get people used to working with each other 
and understanding what is going on, we're missing the boat, and 
we're not spending enough money and enough time exercising.
    Mr. Horn. I'm going to recess that question. I see Mr. 
Lillibridge does have a chance to get away and do certain 
things, but could you tell me on what's apparently yesterday's 
news about an anthrax case in Florida? Was there one? Do we 
know? Is CDC looking at it or what?
    Dr. Lillibridge. Thank you, Mr. Chairman. Let me update on 
that and give you an indication of how the public health system 
works, where we are in that case, and what we know today.
    As you know, yesterday the press reported there was an 
apparent anthrax case in a single individual who was thought to 
be noncommunicable and thought to be sporadic in nature. That 
means one of those cases that occur from time to time.
    We have a robust State and local health department, and 
many accolades to the department--the Florida Department of 
Health in their early response. Remember, they're into a 3-year 
preparedness effort with their lab and their surveillance 
activity, and as we hone our surveillance activity, we're going 
to be more aware of these outlier kinds of cases.
    What we know is that the case was entered into the hospital 
on October 2nd, and within 24 hours the State had done some 
preliminary investigation, was able to confirm laboratory 
testing on this, and confined this to a single case at the 
local facility in--near Miami. The prognosis of that person is 
unclear at this time; however, the test was reconfirmed at CDC 
in a partnership with our--according to our plans, with our 
State and local partners.
    CDC, disease detectives and laboratorians are working with 
the State health department to see if there is any additional 
cases or any additional facts that would help determine where 
this case came from.
    As of this morning--and I talked with the people on the 
ground just before coming to this hearing and asked if there 
was any indication that there was a widespread outbreak or any 
other information that might relate to this hearing, because we 
might be asked, and the answer was no. But I will assure you 
disease detectives are on the ground from both the Florida 
State Health Department and the Centers for Disease Control, 
and we'll keep you updated as information is developed.
    Mr. Horn. At this point, there's no second case.
    Dr. Lillibridge. At this point we are advised by the FBI 
that this does not seem to be a biological agent attack. We are 
not finding secondary cases. This person was--became ill nearly 
a week ago, and by that time we certainly should see additional 
cases if this was going to be a widespread problem.
    Again, we'll keep you updated and keep the public updated 
as information is known.
    Mr. Horn. When was the last anthrax case in this country?
    Dr. Lillibridge. Well, we have information from 1955 to 
1978. We have a total of 11 cases that were documented. Now, 
remember, as you enhance surveillance, we don't find all these 
cases until you begin looking, but at any rate we have 
information on 11 cases, and the last 1 in 19--clearly 1978, 
and recently this case in Florida. Most of these are 
occupational or related to something you're doing with animals, 
hides and that sort of thing, but, again, those occurred in the 
absence of a bioterrorism attack.
    Mr. Horn. Thank you.
    Dr. Lillibridge. Thank you, Mr. Chairman.
    Mr. Horn. You're quite welcome.
    Let's pick up here now with Dr. Smith on----
    Dr. Smith. Training and education.
    Mr. Horn [continuing]. How we educate and train people.
    Dr. Smith. I think what is important to understand is that 
training and education, medical training, medical education, 
it's not a one-time affair. It occurs in multiple venues, 
national meetings, grant rounds. In fact, 2 days ago the 
Washington Hospital Center department of medicine put on a 
grant rounds on biological agents. It was standing room only, 
and I suspect a similar thing is happening in hospitals across 
the country.
    What we need are resources, knowledge, material, and I must 
say, the CDC has done a terrific job on its Web site. The 
material that is there is outstanding and has been a resource 
for many of us, as well as the material that the military has 
put out with its little handbooks on bio and chemical agents. 
So I think what we're going to see is that there's going to be 
an explosion of courses and talks on this subject.
    Mr. Horn. Is anybody on public television doing a, say, 1-
hour on it or something like that?
    Dr. Smith. I don't know, but I suspect they probably are.
    Mr. Horn. You ought to head in their direction.
    Dr. Smith. Thank you.
    Mr. Horn. Mr. Olson, anything else on this?
    Mr. Olson. Mr. Chairman, just a couple of thoughts. First 
of all, there is a robust or a fairly robust training program 
that did indeed migrate from the Department of Defense to the 
Department of Justice, and, again, by way of disclosure, my 
firm has a small part of that, but that doesn't mean it's not 
any good.
    And the program is designed to reach out to carry the 
training to the people when they're in the States, local 
jurisdictions in recognition to the point that's been made 
abundantly clear throughout the day, that the first responders 
are the first line of defense, and that is absolutely true.
    But I also just want to point out my very real appreciation 
of the fact that the medical community in Washington, DC, led 
by George Washington University Medical Center and the 
Washington Medical Center, those are actually a couple of 
institutions that are right out there in the lead. They have 
taken the point on this thing. I think they point a very 
important direction for the medical community in this country.
    However, I do go back to my initial point, which is that I 
do not believe that is representative, unfortunately, at this 
point, of where the Nation's medical communities--they're just 
a little bit behind the power curve at this point.
    Mr. Horn. Thank you.
    I now yield to the ranking member, Ms. Schakowsky, the 
gentlewoman from Illinois.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I'm sorry that Dr. Lillibridge left. And I was pleased with 
his comments that there was still much more to do, because 
while I think it's important for us not to unnecessarily alarm 
people and to overreact, at the same time I think it is not a 
good idea. I know that the Secretary of HHS has been assuring 
the public that our country is perfectly prepared and sounded 
as if in all instances for any threat to our Nation's health, 
and I think we have to take a very clear and thoughtful look at 
this approach to it, and I appreciate all of your comments.
    Two of you--and I don't remember--mentioned Nunn-Lugar and 
the funding that it provides for the domestic work to defend 
against weapons of mass destruction and provide training, not 
to mention securing the Russian stockpile of nuclear weapons. 
My understanding is that in this budget, in the defense 
authorization bill, that there is a $40 million cut in Nunn-
Lugar. Even at the same time as we have about an $8 billion 
increase in national missile defense, there's been a cut. 
Clearly, this bill was crafted before this threat.
    How important is this program and is this funding stream to 
the work that you're doing? Anyone can answer.
    Mr. Olson.
    Mr. Olson. Congresswoman--and I don't want to speak too far 
on this because I wasn't involved in the agency perspective in 
these things--but the cut in Nunn-Lugar, the program was 
essentially designed to reach out to the 120 or so largest 
cities. That program is actually pretty well completing that 
cycle of work. It was a cycle of training followed by a series 
of chemical and biological exercises.
    With the goal of completing the 120 cities, that training 
program and that exercise program, again, was transitioned from 
the Department of Defense to the Department of Justice. And has 
been rolled into other training initiatives which are being 
managed by that agency. Now those programs are still, frankly, 
under development to some extent at this point. Nunn-Lugar is 
continuing, I believe through the next year or so. All of the 
cities that were promised training will receive that training, 
and then, if you will, the next generation of training and 
exercises will follow. Exactly what shape that is, I think is 
still under development, though. But there is a commitment 
within DOJ to continue training and exercise work.
    Ms. Schakowsky. So there is no loss of actual 
implementation due to the reduced funding? Just seems to me, if 
we're looking at where we most usefully put our resources, that 
kind of effort does need to continue. I want to be assured, 
then, that it is.
    Mr. Olson. My understanding and--again, as a scum-sucking 
contractor, my hopes are that this level of effort will 
continue. I would probably direct you to get a better sense of 
the detailed planning from the Department of Justice's Office 
for Domestic Preparedness, which has the mandate for continuing 
that training and exercise program.
    Ms. Schakowsky. I wanted to quickly ask about our public 
health infrastructure; and while I applaud the response that 
there was, it seems to me that had there been--and we all wish 
there were, actually--more injured than there were dead, 
whether or not our system could respond.
    But what I'm concerned about, New York I think was, as you 
said, Mr. Olson, probably more prepared than anyone else. Had 
it been elsewhere, it seems that there are many public health 
offices that are without even some of the basics. The doctor 
from the State of California was saying that her local office, 
before this job, was like that, unequipped with fax machines 
and computers and not updated.
    How big a problem is that around the country, that we don't 
have this kind of infrastructure? And do we have the 
communications systems nationally that can transmit information 
about an anthrax case, or this or that, that would be needed to 
coordinate a response?
    Anybody respond to that?
    Mr. Olson. I will just offer one thought, ma'am.
    Penicillin and streptomycin pretty much killed the public 
health service. Once we shifted to an antibiotic-based approach 
to medicine, we tended to walk away from any of the things that 
we had done back in the era of polio, tuberculosis, smallpox. 
At that time we had a very robust system, because our only 
options were to identify outbreaks early and then rely upon 
techniques like quarantine to control them.
    Once we found we could defeat these diseases, we 
essentially--I won't say we dismantled, but we tended to 
ignore. The phrase ``benign neglect'' comes to mind. I think it 
became a less pressing investment in terms of public 
infrastructure.
    We are now, I think, recognizing that we have to 
reconstitute that. I'm not suggesting that we're going to go 
back to having armies of public health nurses. There are new 
technologies, new ways of doing things; and I know the medical 
community is addressing those surveillance technologies. The 
Internet is a powerful tool. But the public health system is 
not what we would like to think it is.
    Ms. Schakowsky. And, Dr. Smith, how do we increase the 
numbers to the extent that we need to in terms of nursing 
shortages, etc?
    Dr. Smith. It's part of the legislation that has been 
introduced, support for nursing schools, scholarships, all the 
different ways you encourage people to go into a profession 
that is the backbone of our health care system. And like most 
things, it's going to require a multiplicity of efforts.
    Mr. Horn. Go ahead. We have all the peace and quiet now. 
They're all adjourned.
    Dr. Smith. I think that we have to look at the reasons why 
there has been such--there is now a shortage. It really is 
going to become one of the great health care crises in this 
country. If you look at the age spectrum of nurses right now, 
the ones who are working are slanted toward the older age 
group. We do not have the younger nurses coming in that we are 
going to need to sustain all of us when we get to an age where 
we're going to need them even more.
    Ms. Schakowsky. Thank you.
    Mr. Horn. Mrs. Maloney, the gentlewoman from New York.
    Mrs. Maloney. I want to thank all of the panelists, 
particularly Mr. Baughman, and publicly acknowledge for my 
constituency, New York City, and express our appreciation for 
the ongoing leadership, assistance, help that FEMA is giving to 
New York City. Director Allbaugh has spent a great deal of time 
there. We appreciate, really, all of your professional 
expertise and assistance and help.
    I appreciate the comments of all of the panelists. I 
particularly want to thank you for the comments about how well 
New York responded to the crisis that we had. The command 
central for emergencies was completely destroyed in the attack 
on the World Trade Center. It was in one of the buildings that 
later collapsed. And within 3 days, the city totally rebuilt an 
alternative command center down at Pier 92, which I think 
speaks well for the resourcefulness and strength and 
determination of the American people.
    I'd like to ask any of the panelists to comment on this 
question. It's my understanding that if there was an anthrax 
outbreak in one of our cities and it turned out to be 
widespread, that the Federal Government would immediately get 
involved and would tap the emergency medical warehouses at one 
of the eight sites--at one of the eight sites around the 
country. How quickly could these supplies be distributed and 
how coordinated are the various governments to ensure quick 
delivery as well, since we know that different people would 
possibly be getting sick at different times?
    And if anyone would like to respond to that question, I 
would----
    Mr. Baughman. There are now 10 caches, there were 8. We've 
just beefed that up to 10.
    Mrs. Maloney. There are 10.
    Mr. Baughman. The caches can be to the city, or cities, in 
a matter of hours. The problem we found in Top Off, that I 
think still exists is, the ability of the local government to 
do the distribution and inoculation, the local health care 
system. That was a problem if you saw the GAO report in Top 
Off. So that is what I think is the long pole in the tent right 
now.
    Mrs. Maloney. Would anyone else like to comment on how we 
address this problem?
    Mr. Baughman. By the way, in addition to that, we work with 
HHS. We are surging the national stockpile as far as 
pharmaceuticals in addition to that.
    Mr. Horn. I might add on Mrs. Maloney's question, if there 
is anyone from the first panel and if they'd like to comment on 
any of the testimony here of the second panel, please come 
forward and just read your name into it, so the reporter of 
debates will be able to know who said it--if you're still 
around.
    So go ahead.
    Mrs. Maloney. Anyone else care to comment?
    Dr. Smith. The distribution is a real issue. Most 
jurisdictions are only now thinking about how to do it. And 
they have very little experience in doing something similar. 
And if you look--one of the tenets of response in a disaster is 
the doctrine of daily routine. You try to do in a disaster 
extensions of what you do in your day-to-day job because that's 
how you're going to perform the best. If we're trying to do 
something that is totally new and totally different, it's going 
to be much more difficult to effect, and----
    Mrs. Maloney. Earlier, Dr. Smithson responded to my request 
about buying antibiotics and possibly a gas mask by saying that 
it was totally unnecessary. And I have to ask if it gives 
people a sense of security and buys them peace of mind, what's 
wrong with having antibiotics in your medicine cabinet that 
some doctors say could be helpful in case of a chemical or 
biological attack?
    And I ask anyone to respond.
    Mr. Olson. Mrs. Maloney, Congresswoman, this is when it 
actually hits close to home. I've been working in this area for 
about 15 or 16 years. And I can sit back and look at this thing 
very rationally and very calmly and say, well, OK, the best 
strategy is to rely on the public health system, to count on 
the surveillance system to be heightened to a higher level, you 
know, to recognize that there are those, now, 10 caches of 
pharmaceuticals. Yet when I go home at night, my wife is asking 
me, what can I do to protect my daughters? What can I do--I 
need to do something.
    And given that, I guess I'll take exception with my good 
friend, Dr. Smithson, from the earlier panel. I don't 
necessarily see anything wrong, if it makes you feel better, go 
out and buy a gas mask, why not--$50, $100, if it makes you 
feel better that you've got that on the shelf? Odds are you're 
never going to pull that thing down, but you're never going to 
hurt yourself with it either.
    If you go to your doctor and get a prescription for 
antibiotics, if he knows you and gives you a meaningful 
prescription and gives you some good advice on what and when, 
why not? There are very few things that an individual can do. 
This is a mission for government and collective response.
    But I tend to fall on the side of those people who are 
saying, you know, look at the Israelis. They have been living 
on the edge for 50 years and they do these things. We've been 
on the edge for 3 weeks. If it buys us a little peace of mind 
in these very uncertain times, I'm not sure I'm going to stand 
up and tell somebody don't do it.
    Mrs. Maloney. What I find somewhat troubling from the 
presentations we've heard today is, everyone says, ``Don't 
worry, be calm,'' and yet the testimony is saying that we have 
these caches, but we don't have in place a way to distribute 
it, or antibiotics or vaccines, in a quick way; and we don't 
really have the surveillance or the intelligence.
    We don't have the coordination between the FBI and the 
local response people. And you're telling us basically that we 
don't have the health care workers that are trained, and 
they're not vaccinated yet for certain things that some people 
are saying may happen? And yet you're telling us not to be 
concerned.
    So the question that I get asked the most when I go home is 
the question that Mr. Olson's children are asking him and his 
wife is asking him, ``What can we do for civil defense?'' When 
I go home to my community meetings, people know we're at risk. 
It's common sense.
    Who would ever have dreamed that anyone would fly and turn 
our airplanes into a weapon of mass destruction against our own 
Department of Defense and our own financial center? Absolutely 
unbelievable. They even had one man who was saying, ``Just 
train me to fly a plane; I don't want to know how to land, I 
don't want to know how to take off.'' That was reported, and no 
one knew what to do with it because no one could ever imagine 
that this could happen.
    So I think that we have to imagine or think that something 
horrible may happen. And my question is, what can we do for 
civil defense back in our own homes?
    Mr. Olson mentioned Israel. Israel has trained for many 
years for civil defense, having had many terrorist attacks in 
their own country. Are there programs or models that they have 
that we could implement here in our own country? And what can 
we tell our constituents when they say, what can we do back in 
our own city or our own farm or wherever they are to protect 
ourselves in the event of one of these terrible attacks?
    Mr. Baughman. I think there's a couple of things. First 
off, one of the things that we're working on right now is to 
set up a joint information center with all of the agencies that 
have expertise in this particular area to talk about what we 
need to be telling the American public and when we ought to be 
telling the American public. A lot of it is just information. 
But how do we get the information down to folks like Woody and 
the fire chief to get that information out? Right now, we don't 
have real good dissemination systems.
    For example, while in the law enforcement arena you do have 
a means of passing law enforcement sensitive data, there is no 
means that we have readily available to pass it down to the 
firefighter on the street that needs that information.
    So how do we get that out? That is one of the things that 
has been pointed out that has caused problems in past 
disasters. We, right now, have got some things in the works to 
look at some short-term fixes for that. But that is a long-term 
pole in the tent that I think we need to come up with a 
solution to.
    Mrs. Maloney. But before you even get to the firefighter or 
fire officer in a real disaster, many people will not have the 
opportunity to talk to anyone except their immediate family. 
And my question is, what do we say to these people who are 
saying, what do we do for our own defense, that we can do 
ourselves to protect ourselves, because we don't have enough 
police or firemen out there in the event that--if something 
happened quickly?
    Mr. Baughman. There is a list of protective action guides 
that many hospitals have, many health care systems have, that 
we could quickly put together to deal with a situation like 
this. In some cases, we have already done that.
    Mrs. Maloney. We should be getting that out now to the 
public.
    Mr. Baughman. That is correct. We should.
    Dr. Smith. I think it's a very real question. And the 
answer has got to be based on facts, and the answer may turn 
out to be something we're going to do, things we never did 
before.
    The truth is the--a number of the bioagents have an 
incubation period. And during that incubation period where you 
are asymptomatic, if you were to take a simple antibiotic you 
can prevent yourself from getting the disease. It's a 
reasonable question to ask when you're in a high-risk area, 
whether you should have a supply of doxycycline, which is the 
drug, around.
    There are always problems with taking antibiotics--with 
side effects, with outdated drugs. That's why the answer is not 
simple. But it definitely has to be considered. Quite frankly, 
many of my health care colleagues have personal stocks of 
doxycycline and ciprofloxacin. If you abide by the Golden Rule 
that you should do unto others as you do unto yourself, we 
should be considering this.
    Mr. Olson. I've been watching the news over the last couple 
of weeks. I would much rather see people out there buying some 
antibiotics than buying guns. It's going to make a much bigger 
impact.
    Ms. Schakowsky. Thank you. I thank the gentlelady for 
yielding.
    I think that individuals do want information. We do it for 
planning escape routes from our own home in case of fire, 
evacuation plans from buildings and those kinds of things. But 
I think, and I would recommend--and I don't know if it's up to 
FEMA or to HHS. I think people are also looking for collective 
ways of what to do, and there may be a nongovernmental 
organizational infrastructure that people could be plugged into 
in an effective way, that we might want to make suggestions to 
people, ways that we can help our local fire departments or 
ways that we can get involved in--we have it for fighting crime 
neighborhood watch groups, communications systems.
    I'm not really sure. But I think some thought is useful. 
Because people are lining up to give blood; people want to do 
something. I think there may be constructive ways that ordinary 
people in their communities can play a really constructive 
role, who would welcome those suggestions and would even 
implement them themselves at a local level if they were good 
ideas.
    Mrs. Maloney. Reclaiming my time, I have just one last, 
brief question. I'd like every panelist to answer it.
    And it's, what is the No. 1 thing you think we should focus 
on in preparing for chemical and biological attacks? What's the 
No. 1 thing we should focus on? Just go down the line and give 
us your thoughts.
    Mr. Olson. Medical community. We need to train doctors to 
recognize these things; we need to teach them what to do when 
they recognize them. And we need to ensure that the systems 
that exist in the very best hospitals for surveillance and 
communication are present across the board.
    Dr. Smith. Creation of a much more robust information and 
communication infrastructure that will permit integration 
across agencies, among hospitals, people.
    Mr. Fogg. Sharing of intelligence, that's the best way to 
prevent it, minimize it, in the first place.
    Complete implementation of the health alert network, that's 
a great idea. We've got well--gotten well down the road, but we 
need to get the rest of the way. We need buy-in from everybody. 
That's something the public should be informed about and 
supportive of.
    And last, medical surge capacity at the local and regional 
level.
    Mr. Duehring. From a defense angle, if you want just one 
issue, training. Training is a very perishable commodity, 
because you can train one person today and that person may be 
gone tomorrow. With such a large program like this, we have to 
always make sure we are organized and funded to be able to 
train our people and continuously train them so that whenever 
the next crisis occurs, wherever it occurs, that we're there to 
help them.
    Mr. Baughman. I'm going to voice my organizational bias. I 
think we've got to have a strong emergency management system 
from local government to State government, up. Our system and 
Woody's system at the State level integrates all the State 
agencies.
    Responding to a situation like that is not a single agency. 
In New York City, we responded with 14 Federal agencies to that 
one incident. So you've got to have HHS, you've got to have 
EPA, Coast Guard, DOD, and the other agencies integrated in 
that process.
    Down at the State and local level, you need to have fire, 
hazmat and public works integrated in that response. Right now, 
we are putting very little money into emergency management at 
the State and local level.
    Mr. Horn. I'm glad you mentioned that, because the 
Comptroller General of the United States has a very good crew 
in the GAO, General Accounting Office; and we're looking just 
at those to see if those places--by State and region. And we'll 
be doing that over the next 2 months to--there are the pieces 
there, but again, the communications sometimes are lacking.
    Let me ask my last question, I'm sure, and that's--Mr. 
Duehring is the Principal Deputy Assistant Secretary of Defense 
for Reserve Affairs. And I note here in Dr. Smithson's 
testimony on the New York City terrorist attacks, she said that 
the New York State National Guard's civil support team did not 
reach the site until 12 hours after the collapse of the Twin 
Towers. What caused the delay?
    Mr. Duehring. There were a couple of things that happened. 
No. 1, they were notified and alerted immediately. Within 90 
minutes they had moved to a staging area and were ready to go. 
Of course, as a lot of people know with the things that 
happened after 90 minutes, the communications were destroyed 
and the people who were tasked to actually call out the team 
were killed. So there was a bit of confusion.
    And they were summoned eventually. They responded. They did 
their work, I believe, in a 17-block area searching for 
possible contaminants of some type. They determined the area 
was free and clear.
    They withdrew and actually were recalled two other times to 
assist in communications, because the teams have some unique 
equipment installed in their vans which allows them to actually 
marry together various communications systems that the fire 
department or the EMT's or whoever happens to be there might 
have; and when they can't talk to each other, they can through 
this unit.
    So they were very valuable. It was a unique situation 
driven by the events of the time.
    Mr. Horn. Have any of you had a role for the AmeriCorps? A 
lot of us pushed that 10 years ago, and it came out of a group 
of university presidents, that we thought this was a good idea. 
Have any of you used it? And should they be used?
    Mr. Fogg. Yes, we have. We've used AmeriCorps folks rather 
extensively in the State of New Hampshire--not specifically for 
biological/chemical preparedness, but all-hazards 
preparedness--by having them work with some engineers, do 
review for critical facilities in the State and assess their 
vulnerability and measures we can take to improve their 
survivability, not only to man-made issues, but to natural 
disasters, hurricanes, earthquakes, snowstorms, ice storms, 
that sort of thing as well.
    They have been extremely valuable in that process.
    Mr. Baughman. Likewise, we use AmeriCorps too on natural 
disasters. We haven't worked out a role for them in this type 
of environment.
    Mrs. Maloney. Will the gentlemen yield for one quick 
question on September 11th? I want to respond to your comments 
on communications.
    On September 11th I drove home and went to what was then 
command center at One Police Plaza. The No. 1 thing they said 
they needed was communications, all communications were down. 
They really couldn't talk to each other.
    And one of the things I did was call Chairman Young and his 
staff because he was involved with defense; and I know he 
shipped a load of satellite phones down, which is what they 
were asking for.
    So my question to you, learning from the World Trade Center 
disaster and your comments earlier that the response time--the 
early days are when you save people, each day that goes by, the 
opportunity to recover someone diminishes. One of the things 
the rescue workers have told me is that what really strapped 
them for days was the inability to communicate, that you 
literally had to walk to a person to communicate with them. 
There was very little communication.
    And I just ask--maybe not for this panel, but maybe to get 
back to the chairman--your ideas of what we could do to improve 
communications. Did the satellite phones work? Were they--is 
that what we should have ready at FEMA to deliver quickly?
    You know, I just didn't know how to get them, so I called 
Chairman Young; I thought, if anybody has got them, defense has 
got them.
    In other words, how do you respond to that one problem that 
you were mentioning? And really I heard at Ground Zero the 
night of September 11th one of the biggest challenges was the 
inability to communicate. And it went on for days, weeks, that 
the communication system wasn't working.
    Mr. Baughman. The problem was, cell phones were useless, as 
they normally are in any major disaster, because the usage 
goes--on the cells goes up to saturate. The public switch 
network was affected, so it was sporadic at best. Satellite 
communications and high-frequency radio were the only means of 
communications at the time.
    We do, and if a request comes to us, we can tap into any 1 
of the 26 agencies. DOD is one of those national communications 
systems, and their national communications center has about 27 
agencies that have telecommunications assets that can be 
brought to bear. Satellite communications or sat phones, 
getting that to the area, shouldn't have been a problem. If the 
request is put in the right channels, we can get in there.
    Mr. Horn. On that point, the Army, as you know, over the 
last few years, has started moving communications and generally 
computing different things that a soldier does. And it does 
that with one person on the battlefield. And it seems to me, 
some of the domestic agencies might want to look at the 
communications side of that, because I have heard a lot of 
complaints about the 999's, and either we ought to have more 
operators or more satellites or something.
    I remember at my university in Long Beach we had an 
exercise there and nobody could talk to each other--and in all 
of L.A. County. Now, that's 10 million people there, and no 
other part of the United States has 10 million within that 
particular jurisdiction. And they were told, well, all the 
licenses are on the East Coast.
    And I don't know how much that has been changed, because 
nobody's brought it to me if they have. But we need some 
linkage there in terms of getting that.
    I don't know if FEMA is familiar with that. If not, let's 
all go to the FCC.
    Mr. Baughman. Yes, sir. As a matter of fact, one of the 
things we're doing is, we are in the process of doing some 
catastrophic planning. Terrorism is one of the scenarios. We 
are putting a lot of time and effort into that in the upcoming 
year, primarily in five scenario areas. The L.A. Basin is one 
of those to take a look at, each 1 of our 12 functional areas, 
and what we need to do to enhance telecommunications, health 
and medical, in that particular area following a catastrophic 
event.
    Dr. Smith. Would you permit me 90 seconds to respond to one 
of the points of my colleague to the left about the lack of 
involvement of the medical community in this planning, because 
I think it's an important issue?
    I think it's important to realize where there has been--why 
it has occurred. In my view, it is not because of the 
disinterest of physicians to participate. In many cases, the 
medical community is simply not asked. We have been excluded by 
the public safety agencies because we're not considered a 
public safety agency. It's all police, fire and EMS.
    The second point is that hospitals have lots of things on 
their plate. Their primary mission is taking care of individual 
patients. That's their job. And that's actually what they get 
paid for. No insurance payer pays for emergency preparedness. 
We're sort of at the margins.
    In fact, Ms. Schakowsky asked about, why the nursing 
problem? Part of the problem is money. Because we don't have 
money to pay maybe the salaries that we need to pay to attract 
people. So that we have to figure out a way to support 
hospitals, which are really the only private sector in this 
quadrant of police, fire and EMS. The other three are all in 
the public sector.
    Mr. Horn. Yes. Mr. Olson.
    Mr. Olson. We're going to step outside and drop the gloves 
in a second. But whereas that may, in fact, be the case in some 
locals, there have certainly been other opportunities where the 
public health sector, the private health community, was 
specifically invited and again opted not to participate. There 
are no simple answers.
    I'm not even suggesting that there is a lack of desire to 
do something. I acknowledge every one of the structural 
problems that was identified by Dr. Smith just now. I think 
that, nonetheless, the bottom line for all of us now--and I 
heard it down the way here--it's not to go back and beat each 
other up over what we didn't do in the past, it's to identify 
what we need to do together in the future.
    Mr. Horn. Yes. Mr. Fogg.
    Mr. Fogg. I would have to say that our experience has been 
extremely positive. Once--and I guess we did it from the 
emergency management profession. But in New Hampshire, we asked 
and actually our three States Maine, Massachusetts and New 
Hampshire, together, as a result of the Top Off exercise, 
reached out to the medical community. And I've been very 
pleased with the response we've received.
    We recognize that there are gaps there. We recognize the 
economic concerns. And we're trying to work together in spite 
of those constraints to improve the medical surge capability.
    I've been very impressed at the response and the progress 
we've made already. But can we do it without additional help? 
No. We need help.
    Mr. Olson. I would indicate that I think Top Off is an 
example of one case where it definitely worked with the medical 
community in not only the Northeast, but also in Colorado and 
Denver and others did come together and did play well. But that 
was a very high-profile, very long-term effort that took a lot 
of effort to make that happen.
    Again, that's in the past. Let's move forward.
    Mr. Horn. Whatever happened to Vermont? You didn't seem to 
mention Vermont.
    Mr. Fogg. I'm glad you asked, because right now the best 
cooperation we're getting, once we started that after Top Off, 
has been our upper valley in New Hampshire that actually 
reaches up into Vermont in the watershed along the Connecticut 
River. The cross-coordination between the Vermont medical 
community and the New Hampshire one, spearheaded primarily by 
Dartmouth Medical Center in Hanover, right on the border, has 
been astounding. We have reached out to public health services 
on a national level.
    I feel really good about what we're doing there. We just 
need time and a little more resources to get where we want to 
go.
    Mr. Horn. Well, thank you. Any other thoughts before we 
gavel this down?
    Well, if not, I'm going to thank the staff that put this 
hearing together, and the hearings about to come all over the 
country. J. Russell George, staff director and chief counsel; 
Matt Phillips, on my left, is the professional staff member 
that put all the pieces together for this hearing; Mark 
Johnson, our clerk; Bonnie Heald, communications director; and 
Jim Holmes, our intern. And the minority staff: David McMillen, 
professional staff; Jean Gosa, minority clerk, and two 
faithful, hard-working court reporters, namely Julie Thomas and 
Mark Stuart. And we thank you all. It's a tough one.
    So we are now going to recess the committee until we go to 
New York.
    [Whereupon, at 1:58 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] T1522.100

[GRAPHIC] [TIFF OMITTED] T1522.101

[GRAPHIC] [TIFF OMITTED] T1522.102

[GRAPHIC] [TIFF OMITTED] T1522.103

[GRAPHIC] [TIFF OMITTED] T1522.104

[GRAPHIC] [TIFF OMITTED] T1522.105

[GRAPHIC] [TIFF OMITTED] T1522.106

[GRAPHIC] [TIFF OMITTED] T1522.107

[GRAPHIC] [TIFF OMITTED] T1522.108

[GRAPHIC] [TIFF OMITTED] T1522.109

[GRAPHIC] [TIFF OMITTED] T1522.110

[GRAPHIC] [TIFF OMITTED] T1522.111

[GRAPHIC] [TIFF OMITTED] T1522.112

[GRAPHIC] [TIFF OMITTED] T1522.113

                                   - 

</pre></body></html>
